     THE FEDERAL BUREAU OF
        INVESTIGATION’S
CONTROL OVER WEAPONS AND LAPTOP
           COMPUTERS
        FOLLOW-UP AUDIT
       U.S. Department of Justice
     Office of the Inspector General
              Audit Division

          Audit Report 07-18

             February 2007
              THE FEDERAL BUREAU OF INVESTIGATION’S
           CONTROL OVER WEAPONS AND LAPTOP COMPUTERS
                        FOLLOW-UP AUDIT

                                EXECUTIVE SUMMARY

      In 2001, the Attorney General requested that the Office of the
Inspector General (OIG) conduct audits of the controls over weapons and
laptop computers throughout the Department of Justice (DOJ) to address
concerns about the DOJ’s accountability for such property. In response, the
OIG conducted separate audits of the controls over weapons and laptop
computers at the Federal Bureau of Investigation (FBI), the Drug
Enforcement Administration (DEA), the Federal Bureau of Prisons (BOP), and
the United States Marshals Service (USMS). Audit reports on each
component, including the FBI, were issued, as well as an overall report
summarizing the results from each audit. 1

     The OIG’s 2002 report on the FBI disclosed significant losses of
weapons and laptop computers and examined the adequacy of the FBI’s
response to these losses. The report concluded that the FBI’s procedures to
prevent the loss of such equipment were not adequate. Specifically, we
found that the FBI:

       •   identified 212 functional weapons, 142 inoperable training weapons,
           and 317 laptop computers as lost, missing, or stolen for our 28-
           month review period.

       •   did not always report the missing items to the DOJ or enter lost and
           stolen weapons and laptop computers into the National Crime
           Information Center (NCIC) database. 2

       •   did not have policies in place that required reporting lost or stolen
           laptop computers to its Office of Professional Responsibility (OPR),
           nor was the FBI investigating the loss of this equipment in a timely
           manner.

       •   had not established deadlines for reporting losses, was not
           conducting physical inventories as required, and was not reconciling
           its property records to its financial records.

       1
         Department of Justice, Office of the Inspector General. Audit Report 02-27, The
Federal Bureau of Investigation’s Control over Weapons and Laptop Computers, August
2002.
       2
          NCIC is a computerized index of criminal justice information, including criminal
history information, fugitives, stolen property, and missing persons, that is available to
federal, state, and local law enforcement and other criminal justice agencies.
                                             -i-
      •    did not ensure that exit procedures were regularly followed for
           separating employees to ensure that they returned all issued
           property, including FBI-issued weapons.

      •    could not provide documentation to establish whether excessed
           laptop computers were properly disposed of as required.

      To help address these deficiencies, we made 10 recommendations,
including that the FBI establish firm deadlines for reporting lost or stolen
weapons and laptop computers. The FBI agreed with each of our
recommendations and outlined a plan for taking corrective action.

Follow-up Audit

       We conducted this follow-up audit to assess the progress of the FBI in
addressing the deficiencies regarding control over weapons and laptops. The
FBI had the greatest number of losses, as well as the most significant
deficiencies in controls, of all the DOJ components we reviewed in our 2002
audits. 3

       The objective of this follow-up audit was to determine whether the FBI
has implemented adequate corrective action to the findings in the original
audit report. 4 To conduct this follow-up audit, we interviewed FBI officials,
reviewed documents, and tested controls at FBI Headquarters in
Washington, D.C., the FBI Training Academy at Quantico, Virginia, and FBI
field offices in Chicago, Illinois; Los Angeles, California; Miami, Florida; New
York, New York; and Washington, D.C. Fifty-two percent of the FBI’s 52,263
weapons and 54 percent of its 26,166 laptop computers were assigned to
these offices. 5

    To determine whether the FBI has made progress in reducing its
number of lost and stolen weapons and laptop computers, we compared the




      3
        The problems in the Immigration and Naturalization Service (INS) were
comparable, but INS functions were transferred to the Department of Homeland Security in
2003.
      4
        Appendix I contains more information on the current audit’s objectives, scope, and
methodology.
      5
          Appendix II contains more information on the current audit’s sampling design.
                                           - ii -
rate of loss identified in our 2002 audit to the rate found in this follow-up
audit. Our prior audit found that over a 28-month period the FBI reported
354 weapons and 317 laptop computers as lost or stolen. Our follow-up audit
found that over a 44-month period the FBI reported 160 weapons and 160
laptop computers as lost or stolen. We determined that, except for stolen
laptop computers, the rate of loss for each property category decreased, as
detailed below. 6




        6
         Because the audit periods were different lengths, we analyzed the rate of loss on a
 monthly basis.

                                           - iii -
                     MISSING WEAPONS AND LAPTOP COMPUTERS
                         2002 AUDIT VS. FOLLOW-UP AUDIT 7
                          Number of Lost or Stolen Items    Losses Reported Per
                                     Reported                      Month
                          2002 Audit        Follow-up Audit  2002     Follow-up
     Category
                      (28 Month Period)   (44 Month Period)  Audit      Audit
Lost Functional
                              107                     48               3.82        1.09
Weapons
Stolen Functional
                              105                     94               3.75        2.14
Weapons
Lost Training
                              142                     18               5.07        0.41
Weapons
Stolen Training
                               0                       0                0            0
Weapons
     Total Lost or                                         8
                              354                    160
  Stolen Weapons


Lost Laptop
                              300                     116             10.71        2.64
Computers
Stolen Laptop
                               17                     44               0.61        1.00
Computers
     Total Lost or
                              317                    160
   Stolen Laptops
Source: OIG analysis of FBI data

        Yet, despite the FBI’s progress in decreasing the rate of loss for
weapons and laptops, the FBI still reported 160 weapons and laptops that
were lost or stolen. We recognize that in an organization the size of the FBI,
some weapons and laptops will inevitably be stolen or go missing. However,
it is important that the FBI take appropriate steps to minimize these losses.
When losses occur, the FBI must timely report the loss, be able to identify
the contents of lost laptops, and determine whether the laptop is encrypted.
In addition, the FBI must investigate these losses and thefts, enter required

       7
         Our review period for the 2002 audit covered 28 months, from October 1, 1999, to
January 31, 2002. Our review period for our follow-up audit covered 44 months, from
February 1, 2002, to September 30, 2005.
       8
         The FBI objected to the inclusion of 43 of these 160 weapons because while they
were reported as lost or stolen during our 44 month follow-up period, the loss actually
occurred before our follow-up period. We did not delete these weapons from the table
because: (1) the losses were not categorized as such in the FBI's official property
management system until after the beginning of our follow-up period, (2) our approach in
the follow-up audit was consistent with our approach in the 2002 audit, which also included
weapons that were reported as lost or stolen during our review period, (3) none of these 43
weapons were included in the 354 lost or stolen weapons reported in the 2002 audit, (4) to
delete them would give the appearance that the FBI had 43 fewer lost or stolen weapons
than was actually the case.

                                          - iv -
data into the National Crime Information Center (NCIC), and report the
losses to DOJ as required.

      Our audit found that the FBI has not taken sufficient corrective action
on several recommendations outlined in our 2002 audit report to address the
issue of missing and stolen equipment. Perhaps most troubling, the FBI
could not determine in many cases whether the lost or stolen laptop
computers contained sensitive or classified information. Such information
may include case information, personal identifying information, or classified
information on FBI operations.

       Prior to our follow-up audit the FBI did not maintain records indicating
which of its laptop computers actually contained sensitive or classified
information. Moreover, during this follow-up review, the FBI could not
identify for us the contents of many of the lost and stolen laptops, including
whether they contained sensitive or classified information.

      The following sections of this Executive Summary summarize the main
findings of this follow-up audit.

Reporting Weapons and Laptop Losses

       During our initial review in 2002, we found that the FBI did not specify
deadlines for submitting the Report of Lost or Stolen Property form (Form
FD-500) to report the loss of FBI property. As a result, we recommended
that the FBI establish and adhere to firm deadlines to ensure that:
(1) employees promptly report the loss or theft of FBI property to their
supervisors; (2) supervisors report losses or thefts to headquarters units,
including the Firearm Training Unit (FTU), OPR, the Asset Management Unit,
and the Security Division; (3) OPR initiates and completes an investigation
into the loss; and (4) information from the Form FD-500 is entered into
NCIC (when appropriate).

       In response, the FBI revised its policy to require that employees report
lost or stolen weapons and laptop computers to their division office within 5
days after discovery of the loss. Division offices, in turn, are required to
submit a Form FD-500 to the FBI’s Finance Division and the Asset
Management Unit within 10 days of the loss. All losses of weapons and




                                     -v-
laptop computers are required to be entered into the NCIC database and
forwarded to the FBI Inspection Division for investigation. 9

      We reviewed the reporting actions taken by the FBI in response to lost
or stolen weapons and laptop computers by examining the Forms FD-500
during our 44-month review period. We assessed whether the loss was
reported to the Asset Management Unit, entered into NCIC, and referred to
the Inspection Division for investigation and OPR for adjudication. The table
below categorizes our findings.

                       FBI REPORTS OF THE LOSS OR THEFT OF
                         WEAPONS AND LAPTOP COMPUTERS
                   FEBRUARY 1, 2002, THROUGH SEPTEMBER 30, 2005




   WEAPONS
                                                            157                      3
     Submitted a Loss Report
     Entered the Loss into NCIC                       137                       23
     Referred the Loss to                            128                       32
     OPR/Inspection Division                                                              Yes
                                                                                          No
   LAPTOP COMPUTERS
                                                           152                       8
     Submitted a Loss Report
     Entered the Loss into NCIC   24                              136
     Referred the Loss to              38                           122
     OPR/Inspection Division




 Source: OIG analysis of FBI data

      Of the 160 missing weapons, the FBI was able to provide Forms
FD-500 for 157 weapons. The remaining three weapons were missing the
required form. Of the 157 lost or stolen weapons that were reported using a
Form FD-500, we found:

       •    18 weapon losses were reported using an outdated Form FD-500.
            The old form did not capture critical information such as the date of
            loss, NCIC entry, and whether OPR was notified. 10

       9
          Since the issuance of our initial audit report in 2002, the FBI reorganized OPR and
the Inspection Division. In February 2004, the FBI transferred the responsibility for
investigations of alleged employee misconduct from OPR to the Inspection Division. The
OPR continues to be responsible for adjudicating disciplinary matters.
       10
           The Form FD-500 was updated on July 24, 2002, to include new fields. An
additional 47 FD-500’s submitted prior to July 24, 2002 did not contain critical information
such as the date of loss, NCIC entry, and whether OPR was notified.

                                            - vi -
       •    92 weapon losses were reported on the new Form FD-500.
            However, 51 of the 92 new Forms FD-500 were incomplete because
            the individual preparing the form did not enter critical information
            such as the date of loss, NCIC entry, and whether OPR was notified.

       •    54 weapon losses were reported late—more than the required 10
            days—thus possibly delaying timely investigation into the
            circumstances of the loss.

     Of the 160 missing laptop computers, the FBI was able to provide
Forms FD-500 for 152 laptops. Eight laptops were missing the required
form. Of the 152 that were reported using a Form FD-500, we found:

       •    24 laptop losses were reported using an outdated Form FD-500. 11
            The old form did not capture critical information such as the date of
            loss, NCIC entry, and whether OPR was notified.

       •    107 laptop losses were reported on the new Form FD-500.
            However, 82 of the 107 new Forms FD-500 were incomplete
            because the individual preparing the form did not enter critical
            information such as the date of loss, NCIC entry, and whether OPR
            was notified.

       •    38 laptop losses were reported late—more than the required 10
            days—thus possibly delaying timely investigation into the
            circumstances of the loss. 12

      Thus, although the FBI has strengthened its policy for reporting lost or
stolen weapons and laptop computers by revising the Form FD-500 and
establishing a new 10-day deadline for reporting losses, the FBI did not
ensure that its staff always used the revised form or reported the loss within
10 days, as required. We recommend that the FBI ensure that its staff
prepare complete and accurate loss reports using the latest version of the
Form FD-500 and submit those reports to the appropriate offices in a timely
manner.

Contents of Lost or Stolen Laptop Computers

      Our review of the 152 Forms FD-500 for lost and stolen laptops
revealed that 101 were identified as not containing sensitive or classified
information, 43 were not marked as either containing or not containing

       11
            An additional 21 Forms FD-500 submitted prior to July 24, 2002 did not contain
critical information such as the date of loss, NCIC entry, and whether OPR was notified.
       12
         For more detail on the lost and stolen weapons and laptops, see Appendices III
through VI.
                                           - vii -
sensitive or classified information, and 8 were marked as containing
sensitive or classified information. 13

       We asked the FBI’s Security Division for any additional information
that it had on the 160 laptop losses. We were provided limited information
on only 12 laptop losses that the Security Division had reviewed. Two of the
12 laptop losses that the Security Division reviewed were initially part of the
101 that were identified on the Forms FD-500 as not containing sensitive or
classified information. The Security Division determined that these two
laptop computers contained sensitive but unclassified information.
Therefore, we added these two laptop losses to the eight that were identified
on the Forms FD-500 as containing sensitive or classified information.
Details related to the 10 laptops are provided in the table below.




       13
           In addition to the 43 laptop losses for which the Forms FD-500 were not marked
to indicate whether the laptops contained or did not contain sensitive or classified
information, there were 8 laptop losses for which the Property Management Unit did not
retain the Forms FD-500 and had no information on whether these laptops contained or did
not contain sensitive or classified information. Therefore, we combined these 8 laptop
losses to the 43 and discuss the FBI’s response to these losses in more detail later in our
report in the 51 Laptop Losses section.
                                          - viii -
                            DETAIL ON LAPTOP LOSSES
                 CONTAINING SENSITIVE OR CLASSIFIED INFORMATION
                             Office
             Date of       Reporting     Type of                             Nature of
  No.         Loss            Loss        Loss       Encrypted?              Contents
                        Boston                                      Software for creating
   1         07/12/02                    Stolen          Yes
                        Field Office                                identification badges.
                        Indianapolis
   2         09/02/02                     Lost        Unknown       Unknown
                        Field Office
                                                                    Used to process
                        New Orleans
   3         09/24/02                    Stolen       Unknown       surveillance-related
                        Field Office
                                                                    electronic digital imaging.
                        Phoenix
   4         07/15/03                     Lost        Unknown       Unknown
                        Field Office
                                                                    System security plan for
                        Security
   5         03/11/04                    Stolen          Yes        an electronic access
                        Division
                                                                    control system.
                        Washington
   6         05/19/04                     Lost        Unknown       Unknown
                        Field Office
                                                                    Unknown - SCU
                        Security                                    determined contents to
   7         05/06/05                     Lost        Unknown
                        Division                                    be sensitive, but
                                                                    unclassified.
                                                                    Unknown - SCU
                        CJIS                                        determined contents to
   8         06/24/05                    Stolen          Yes
                        Division                                    be sensitive, but
                                                                    unclassified.
                                                                    Unknown -
                        San Diego                                   SCU determined contents
   9         08/21/05                    Stolen       Unknown
                        Field Office                                to be sensitive, but
                                                                    unclassified.
             Unknown    Quantico                                    Names, addresses, and
  10         (approx.   Laboratory       Stolen       Unknown       telephone numbers of FBI
              07/02)    Division                                    personnel.
Source: FBI Forms FD-500

      Although 8 of the 10 laptop losses were identified on the Forms
FD-500 as containing sensitive or classified information, the Forms FD-500
for these eight laptop losses did not specifically make a distinction as to
whether the information was sensitive or classified National Security
Information (NSI). 14 We asked FBI Asset Management Unit and Security
Division officials whether they could identify if any of the eight laptops did in
fact contain National Security Information. The Security Division provided
us information to indicate that the laptop loss reported by the CJIS Division
on June 24, 2005, contained sensitive but unclassified information.
        14
           According to the FBI Security Handbook, sensitive information is information that,
if disclosed, could adversely affect the ability of the FBI to accomplish its mission. Examples
of sensitive information might be the identity of undercover agents, names of people under
investigation, tax return information, or personal data on individuals. Classified information
(National Security Information) is information that has been determined pursuant to
Executive Order 12958 or any predecessor order to require protection against unauthorized
disclosure and is marked to indicate its classified status when in documentary form. For
further details on the classification levels of Classified National Security Information see
Appendix XVII.

                                            - ix -
However, FBI officials informed us that they did not know whether the
remaining seven laptops that were identified as containing sensitive
information actually contained classified information.

      According to the OPR and Inspection Division records, the FBI
investigated 6 of the 10 laptop losses that were known to contain sensitive
or classified information. Of the six laptop losses that were investigated,
one resulted in a 3-day suspension, two investigations were pending as of
February 2006, and three resulted in no action taken against the employee.
The FBI did not investigate the remaining four losses, including the loss of
laptop computers that contained personal identifying information of FBI
personnel and software for creating identification badges. 15

       Similarly, we asked FBI Security Division officials if they conducted any
type of review to determine the contents of the remaining seven laptop
losses or to assess the potential damage to national security and the FBI’s
operations. Security Division officials stated that they are reviewing the
Forms FD-500 and contacting the appropriate field offices to determine what
kind of information was on the laptops. However, the Security Division
officials informed us that because these losses occurred some time ago it is
doubtful that the FBI would still have information about the content of the
laptops.

51 Laptop Losses

       As noted above, the Forms FD-500 for 43 of the 51 laptop computers
did not indicate, as required, whether the laptops contained sensitive or
classified information. The employees who completed the forms did not
check the box to indicate whether sensitive or classified information was on
the laptop, nor did the Accountable Property Officer or the Asset
Management Unit complete that section of the form when it was submitted.
Moreover, the forms that were completed did not contain an adequate
description of the information contained on the laptops. See Appendix IV.
An analysis of the 51 laptop computers is provided in the table below. 16




       15
          See Appendix IV for a detailed description of the disciplinary action taken relating
to the 160 FBI laptops that we identified in our follow-up audit as being lost or stolen.
       16
            A more detailed analysis can be found in Appendix VII.
                                             -x-
                       ANALYSIS OF THE 51 LAPTOP COMPUTERS
                UNKNOWN TO HAVE SENSITIVE OR CLASSIFIED INFORMATION
                                        Assigned
                                           To
                  Category              Employee          Unassigned           Total
            Unexplained Losses 17           3                 22                25
            Loss Identified During
            FBI Physical                     5                 16                21
            Inventories
            Stolen from Vehicle              1                  1                 2
            Stolen from FBI Office           0                  1                 1
            Other                            2                  0                 2
            TOTAL                           11                 40                51
            Source: FBI Forms FD-500

       Seven of these 51 laptop computers were assigned to divisions within
the FBI that handle some of the most sensitive information related to
national security. Six were assigned to the Counterintelligence Division and
1 was assigned to the Counterterrorism Division. Yet, the FBI did not know
the contents of these computers or whether they contained sensitive or
classified information.

     Of these 51 laptops, 11 were referred to FBI’s OPR/Inspection Division.
Two resulted in disciplinary action of the employee -- one letter of censure
and one 3-day suspension. The documentation maintained at
OPR/Inspection Division did not indicate the contents of these laptop
computers.

      This is a significant deficiency. Some of these laptops may have
contained classified or sensitive information, such as personally identifiable
information or investigative case files. 18 Without knowing the contents of
these lost and stolen laptop computers, it is impossible for the FBI to know
the extent of the damage these losses might have had on its operations or
on national security.

       FBI officials acknowledged to the OIG that there was a breakdown in
obtaining the necessary information on the contents of the laptops that were
lost or stolen. They suggested that part of the cause may be attributed to



       17
            Eight of these 22 laptops were not assigned to an employee.
       18
           Personally Identifiable Information is information about an individual maintained
by an agency, including, but not limited to, their education, financial transactions, medical
history, and criminal or employment history, as well as information which can be used to
distinguish or trace an individual's identity, such as their name, social security number, date
and place of birth, mother’s maiden name, biometric records, or other personal information
which is linked or linkable to an individual.
                                            - xi -
the lack of a centralized office in the FBI that could ensure that Forms
FD-500 are complete and accurate.

Entering Losses of Weapons into NCIC

      FBI policy states that lost and stolen weapons and laptops are required
to be entered into NCIC. Our 2002 audit found that 14 of the 276
(5 percent) lost or stolen FBI weapons had not been entered into NCIC.
Entering these items into NCIC could increase the chance of recovering the
weapon or identifying the weapon if it is used in the commission of a crime.

      In our follow-up audit, we found no NCIC records for 23 of the 160
(14 percent) lost or stolen weapons and no NCIC record for 136 of the 160
(85 percent) lost or stolen laptops. 19 At our exit conference, FBI officials
stated that 10 of the 23 weapons currently do not have a record in NCIC.
The remaining 13 included 6 weapons that had active records and 7
weapons that have been recovered.

      We also queried NCIC to determine whether the lost and stolen
weapons and laptop computers were recovered and, for the weapons,
whether they were used in the commission of a crime. We identified no
instances where law enforcement recovered any of the 160 lost or stolen
weapons the 160 lost or stolen laptop computers. However, after
completion of our fieldwork, the FBI reported to us that seven weapons had
been recovered. Details of those weapons are listed in Appendix III.

Referring and Investigating Losses

      Our 2002 audit found that losses of weapons and laptops were not
regularly referred to OPR for investigation and that disciplinary action was
generally not taken when individuals deviated from FBI policies concerning
the handling of weapons and laptops. As a result, we recommended the FBI
revise its policy and establish criteria for disciplining employees whose
negligence resulted in the loss or theft of a weapon or laptop.

      In response to our recommendation, the FBI stated that all weapon
and laptop losses are required to be referred to OPR/Inspection Division. In
our follow-up audit, we reviewed documentation related to OPR’s and the
Inspection Division’s investigations. The results follow.




       19
          In our prior audit, we did not determine whether lost or stolen laptop computers
were entered into NCIC because at the time the FBI had no requirement to enter this
information into NCIC.

                                          - xii -
Weapons Loss

      The MAOP requires that each weapon loss must be referred to OPR.
However we found that 32 weapons (20 percent) were not referred.
Further, of the total 160 lost or stolen weapons OPR/Inspection Division
opened an internal investigation into 70 (43 percent) of those losses.
OPR/Inspection Division explained that it did not open an internal
investigation for the remaining 90 losses for the following reasons:

      •   22 losses did not receive requisite notification from field offices

      •   58 had no evidence of employee misconduct that would warrant an
          internal investigation

      •   10 were training weapons

      We found it troubling that many of the weapon losses were not
referred to OPR/Inspection Division for investigation even though the
requirement in the MAOP clearly states that each weapon loss must be
referred to OPR. As we previously mentioned, FBI officials told us that they
do not investigate these losses because of insufficient information to indicate
possible misconduct or negligence by an employee or the fact that the
weapon was not specifically assigned to an employee.

Laptops Loss

      The MAOP requires that each laptop loss must be referred to OPR. We
found that 122 laptops (76 percent) were not referred. Further, of the total
160 lost or stolen laptops OPR/Inspection Division initiated an internal
investigation into 21 (13 percent) of the losses. OPR/Inspection Division
explained that it did not initiate an internal investigation for 139 losses
because of the following reasons:

      •   122 losses did not receive requisite notification from field offices

      •   17 had no evidence of employee misconduct that would warrant an
          internal investigation

      Similar to lost or stolen weapons, OPR/Inspection Division explained
that cases are opened when there is sufficient evidence of an employee’s




                                      - xiii -
misconduct, and that cases were not opened if the lost or stolen laptop was
not assigned to specific FBI personnel. 20

Lack of Centralized Oversight and Monitoring

       In our analysis of the FBI’s response to lost and stolen weapons
and laptop computers, we identified several weaknesses that resulted
in inadequate reporting of weapon and laptop losses within the FBI.
When reports were submitted, there did not appear to be any type of
review at the FBI’s Asset Management Unit to ensure that all
necessary information and documentation was received. Also, there
did not appear to be consistent notification to the proper headquarters
units, such as the Security Division or the OPR/Inspection Division.

INTERNAL CONTROLS

      In our 2002 audit, we reported that the FBI failed to give sufficient
attention to property management. Periodic inventories of accountable
property were not conducted, departing employees did not always return all
property that had been issued to them, and the destruction of outdated,
damaged, or excessed laptop computers was not adequately documented.
Additionally, while the FBI documented the disposal of laptop computers, it
did not adequately document that all sensitive or classified information had
been sanitized prior to their disposal.

       In our follow-up audit we noted improvements in the areas of
conducting physical inventories and reconciling property records to the
financial records. However, we identified continuing weaknesses in several
areas. Specifically, the FBI failed to adequately: (1) maintain records on
how many of its laptop computers were authorized to process classified
information; (2) improve its documentation of the disposal of excess laptop
computers and hard drives to ensure that all sensitive or classified
information had been sanitized prior to disposal; (3) report weapon and
laptop losses to the DOJ; (4) improve the process to ensure that property is
recovered from employees before they leave FBI service; and (5) adhere to
its policy on property storage.




       20
           When we began our follow-up audit, there were over 10,000 laptops that were
not specifically assigned to FBI personnel. All laptop computers are required to be charged
out in the PMA and assigned to individuals in an effort to strengthen accountability and
minimize unexplained losses. We found that as of March 2006, 37 percent of the FBI’s
laptop computers had not been recorded as being assigned to individuals. However, after
we inquired about this issue in March 2006, the FBI made a significant effort to assign the
laptop computers to specific individuals. Therefore, as of May 2006 less than 1 percent of
the FBI’s laptop computers were not assigned to individuals.
                                          - xiv -
Physical Inventories

      The FBI’s regulations require an annual inventory of all sensitive
capitalized assets and sensitive property items, which include weapons and
laptop computers. The FBI is also required to conduct a full inventory of all
property and equipment every 2 years.

      During our follow-up audit, we reviewed FBI-wide inventory reports for
the years 2003 through 2005. We noted that the FBI had completed
biennial inventories of all accountable property and annual inventories of
sensitive items, including weapons and laptop computers.

Reconciling Property Records to the Financial System

      In our 2002 audit report, we determined that the FBI’s financial
system was not fully integrated with the Property Management Application.
As a result, the financial and property management systems did not
automatically verify whether the number of items actually purchased agreed
with the number of items placed into inventory. We recommended that the
FBI implement a policy requiring that property records be reconciled with
financial records to ensure the completeness of the FBI’s property records.

      In response to this recommendation, the FBI stated that the Asset
Management Unit and Contract Unit would coordinate to ensure that the
Property Management Application was updated manually to include
purchases of non-capitalized property, including weapons and laptops.
Further, FBI divisions were instructed to generate and review on-order
reports on a monthly basis to ensure that newly purchased property was
added to the PMA. 21 In addition, the Asset Management Unit generated
delinquent on-order reports and distributed them to the appropriate APOs for
follow-up.

      In our follow-up review, we determined that the FBI’s financial system
was still not fully integrated with the PMA, although all divisions currently
have the capability to generate an on-order report. In addition, we verified
that FBI divisions have been instructed to generate the report on a monthly
basis to review newly purchased property that should be placed in the PMA.
We also noted that the Asset Management Unit generates delinquent on-
order reports and distributes all copies to the APOs for follow-up.

      As a result of our follow-up review, we concluded that the FBI had
implemented a sufficient policy requiring that property records be reconciled
to the financial records to ensure the property records are complete.

       21
         An on-order report reflects capitalized and non-capitalized property valued at
$1,000 and above, and also sensitive property that should be placed in the PMA.
                                          - xv -
Accuracy and Completeness of Property Records in the PMA

       In our 2002 audit, we performed two tests to determine the accuracy
and completeness of the PMA. We judgmentally selected weapons and
laptop computers from the PMA and physically verified their existence. We
also judgmentally selected items that were physically located at selected
field and headquarters offices and traced them to the PMA. In our 2002
audit the FBI was able to provide all weapons and laptop computers for our
physical verification.

      During our follow-up audit, we performed the same two tests to
determine the accuracy and completeness of the PMA. First, we selected a
random sample of 497 weapons and 477 laptop computers from the PMA
and physically verified their existence. We evaluated property records and
property management activities at FBI headquarters and offices in New York,
New York; Los Angeles, California; Washington, D.C.; Chicago, Illinois; and
Miami, Florida. 22 The FBI was able to provide all weapons and laptop
computers for our physical verification, except for one weapon and two
laptop computers assigned to FBI headquarters, for which the FBI provided
confirmations of their existence.

       We also tested the completeness of the property records by selecting a
sample of 10 weapons and 10 laptop computers held at each of the field
offices. We reviewed and traced them to the PMA and found no
discrepancies.

Reporting Requirements for Laptop Computers Containing NSI

       The DOJ’s Office of the Chief Information Officer (CIO) requires the FBI
to report the number of laptop computers it has authorized for processing
classified information. During our follow-up audit, we requested but did not
receive from the FBI or the DOJ CIO these required reports. FBI officials
told us that they did not keep records related to the classification level of
each laptop, and the DOJ CIO confirmed that the FBI had not submitted the
report. Further, the DOJ Office of the CIO stated that it had requested that
the FBI submit the report by June 4, 2006. When we contacted DOJ CIO on
June 12, 2006, we determined that the FBI had not submitted the report.

       In September 2006, the FBI provided us with a list containing
classification levels for 1,925 of its approximately 25,000 laptop computers.
According to the FBI, it deployed a software application in June 2006 to
register all FBI electronic devices. The application requires users to register
their assigned devices and to indicate the security classification of each

       22
            The universe of weapons and laptop computers for each audited location and
details of our sample, by property type, location, and type of test, appear in Appendix II.
                                           - xvi -
device. FBI officials told us that they are in the process of completing the
registration for the remaining 23,000 laptops.

Reporting Losses to DOJ

DOJ Semiannual Theft Reports

      DOJ regulations require all components to submit to DOJ semiannual
reports summarizing loss of government property that occurred in the
preceding six months from January 1 and July 1 of each year. In our 2002
audit, we found that four of the five semiannual reports submitted by the
FBI to the DOJ were submitted late, ranging from 6 to 106 days. In
addition, the semiannual reports were inaccurate with respect to the number
of weapon and laptop losses. We recommended that the FBI submit
complete, accurate, and timely semiannual reports to the DOJ Security
Officer. The FBI agreed with our recommendation.

       However, in this follow-up audit, we found that one required report
was not submitted at all, and all of the submitted reports were incomplete
and inaccurate. For example, in its semiannual reports the FBI reported to
the DOJ only 106 lost or stolen weapons compared to the 160 we found in
our review, and 97 laptop computer losses compared to the 160 we found in
our review. Further, only three of the seven laptop computers that were
identified as having sensitive or classified information were reported to DOJ.
The remaining four were not reported in the semiannual reports. In our
judgment, the FBI has not adequately improved its procedures relating to
timely and accurate semiannual reports of losses of government property.

DOJCERT

      DOJ regulations also require all components to submit immediate
reports summarizing computer security incidents involving the loss of both
classified and unclassified systems to the Department of Justice Computer
Emergency Response Team (DOJCERT). The DOJCERT assists in handling
computer security incidents throughout DOJ. 23

      We contacted DOJCERT officials to determine if the FBI submitted the
required incident reports for the 160 laptop computers that were identified
as lost or stolen during our review period. We determined that of the 160
laptops that FBI reported as lost or stolen during the 44-month review
period, it had only submitted one incident report to the DOJCERT. This

       23
           According to the DOJCERT, computer security incidents are any unexpected,
unplanned event that could have a negative impact on IT resources. Computer security
incidents can include the loss of both classified and unclassified systems, unauthorized
removal of computer equipment, and exploited weaknesses in a computer system that
allows unauthorized access to password files.
                                          - xvii -
incident report contained information regarding a laptop computer that
contained sensitive information reported stolen from the FBI’s Criminal
Justice Information Services (CJIS) Division on June 24, 2005. The FBI did
not report any of the other lost or stolen laptop computers to the DOJCERT,
including the other 9 that the FBI believed contained sensitive or classified
information.

      We asked the FBI’s Enterprise Security Operations Center (ESOC), the
unit responsible for submitting incident reports summarizing computer
losses, why only one incident was reported to the DOJCERT. In response,
the ESOC officials stated that prior to an OMB memorandum, Reporting
Incidents Involving Personally Identifiable Information and Incorporating the
Cost for Security in Agency Information Technology Investments, dated July
12, 2006, the FBI was only responsible for submitting incidents to the
DOJCERT that pertained to the loss of Personally Identifiable Information.
However, as stated previously, as a result of our review we identified a
stolen laptop containing the names, addresses and phone numbers of FBI
personnel that was not reported to the DOJCERT. Further DOJCERT officials
confirmed that the reporting of incidents involving the loss of both classified
and unclassified systems to the DOJCERT has been a requirement since the
inception of the United States Computer Emergency Readiness Team (US-
CERT) in 2003. 24

Disposal of Weapons and Laptop Computers

      In our 2002 audit report, we found that the documentation for laptop
disposals did not identify whether hard drives were properly destroyed and
disposed of and were free of classified information. We recommended that
the FBI improve its documentation of outdated, damaged, or excess laptop
computers and hard drives that have been discarded.

      To determine if the FBI improved its documentation of laptop
disposals, we requested the disposal records for a sample of excessed hard
drives at each of the five field offices we visited during our follow-up audit.
We found that the FBI field offices did not retain documentation indicating
whether it removed hard drives from excessed laptop computers and sent
them to FBI headquarters for disposal. Officials at several of the field offices
told us that they believed the proper procedure had been followed for laptop
disposal, but they could not provide evidence of this. Therefore, we could
not confirm whether the FBI was ensuring that the laptops it disposed of
were properly sanitized of sensitive or classified information.


       24
          The United States Computer Emergency Readiness Team (US-CERT) is a
partnership between the Department of Homeland Security and the public and private
sectors. Established in 2003 to protect the nation's Internet infrastructure, US-CERT
coordinates defense against and responses to cyber attacks across the nation.
                                         - xviii -
Exit Procedures for Departing Employees

       During our 2002 audit, we found indications that the FBI was not
recovering all issued weapons and laptops from employees prior to their
departure from the organization. We recommended that the FBI strengthen
procedures to ensure that departing employees return all property that had
been issued to them or reimburse the government for the cost of such
property. In response to the recommendation, the FBI revised its policy and
distributed an electronic communication to all employees who were leaving,
notifying them that they could be held accountable for lost or stolen FBI
property.

       During our follow-up review, we judgmentally selected the files of 50
former employees and reviewed the corresponding Forms FD-281 and
FD-193s for both weapons and laptops issued to each of the 50
employees. 25 The FBI could provide only 19 Forms FD-281 for weapons and
laptop computers, and only 32 of the required 50 Forms FD-193. Based on
our overall review of the 160 weapon losses, we concluded that four of the
lost or stolen weapons were the result of an agent leaving the FBI and not
returning their weapon. In our judgment, the FBI has not sufficiently
strengthened its exit processing for departing employees.

Conclusions and Recommendations

       The FBI has made progress in decreasing the rate of loss for weapons
and laptops, although it still has a significant number of FBI weapons and
laptops lost or stolen each year. Moreover, several of the missing laptops
contained sensitive information, and the FBI’s documentation does not
indicate how many of the other missing laptops contained sensitive or
classified information.

      Our audit also found that the FBI has not taken sufficient corrective
action on several recommendations contained in our 2002 audit report. We
determined that FBI is not reporting lost or stolen weapons and laptops as
required. The FBI also is not consistently entering losses of weapons into
NCIC or ensuring that all departing employees turn in their weapons.




      25
          The Receipt for Government Property form (Form FD-281) is used for
documenting both the receipt and return of government property. The Report of Exit and
Separation form (Form FD-193) documents a variety of actions that must be completed
upon an employee’s departure.
                                        - xix -
      Our audit report contains 13 recommendations to the FBI related to
ensuring compliance with FBI policies and reporting requirements, as well as
ensuring that weapon and laptop losses are appropriately reported and
investigated. For example, the FBI needs to ensure that employees report
the contents of lost laptop computers on the FD-500, that the FBI timely and
accurately reports losses of laptops to DOJ, that all lost or stolen weapons
are entered into NCIC, and that that all departing employees return FBI
property.




                                   - xx -
                                        TABLE OF CONTENTS

INTRODUCTION .................................................................................. 1
   Background.................................................................................... 2
   Property Management Application System .......................................... 3
   Audit Approach ............................................................................... 5

FINDINGS AND RECOMMENDATIONS.................................................. 7

 I. FBI'S RESPONSE TO WEAPON AND LAPTOP LOSSES..................... 7
    Rate of Weapon and Laptop Losses.................................................... 7
    Weapons Losses ............................................................................. 9
    Laptop Computers Losses............................................................... 10
    Reporting Weapon and Laptop Computer Losses................................ 11
    Contents of Lost or Stolen Laptop Computers.................................... 14
    Entering Losses Into NCIC.............................................................. 20
    Referring and Investigating the Losses ............................................. 21
    Lack of Centralized Oversight and Monitoring .................................... 25
    Conclusion ................................................................................... 25
    Recommendations......................................................................... 26

 II. INTERNAL CONTROLS................................................................. 28
     Physical Inventories ...................................................................... 28
     Reconciling Property Records to the Financial System......................... 29
     Accuracy and Completeness of Property Records in PMA ..................... 30
     Reporting Requirements for Laptop Computers Containing NSI ............ 32
     Reporting Losses to DOJ ................................................................ 32
     Disposal of Weapons and Laptop Computers ..................................... 35
     Exit Procedures for Departing Employees.......................................... 37
     Conclusion ................................................................................... 38
     Recommendations......................................................................... 39

 STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ...... 40

 STATEMENT ON MANAGEMENT CONTROLS...................................... 41

APPENDICES:

I.       OBJECTIVES, SCOPE, AND METHODOLOGY ............................. 42

II.      SAMPLING DESIGN................................................................. 45

III.     CIRCUMSTANCES OF WEAPON LOSSES................................... 47
IV.     CIRCUMSTANCES OF LAPTOP LOSSES .................................... 56

V.      ANALYSIS OF LOST AND STOLEN WEAPONS........................... 64

VI.     ANALYSIS OF LOST AND STOLEN LAPTOP COMPUTERS .......... 68

VII.    ANALYSIS OF 51 LOST AND STOLEN LAPTOP COMPUTERS ..... 72

VIII. ANALYSIS OF PROPERTY MANAGEMENT RECORDS ................. 75

IX.     LOST AND STOLEN WEAPONS NOT FOUND IN NCIC ............... 76

X.      LOST AND STOLEN LAPTOPS NOT FOUND IN NCIC ................. 77

XI.     LOST OR STOLEN WEAPONS AND LAPTOPS BY FBI FIELD
         OFFICE ................................................................................ 81

XII.    REVISED FORM FD-500 .......................................................... 82

XIII. FORM FD-281 ......................................................................... 83

XIV.    FORM FD-519 ......................................................................... 84

XV.     FORM FD-193 ......................................................................... 85

XVI.    ABBREVIATIONS AND FORMS ................................................ 86

XVII. NATIONAL SECURITY INFORMATION ..................................... 87

XVIII. AUDITEE RESPONSE ............................................................... 88

XIX.    OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION
        ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO CLOSE
        THE REPORT ........................................................................... 93
                                    INTRODUCTION

      In 2001, the Attorney General requested that the Office of the
Inspector General (OIG) conduct audits of the controls over weapons and
laptop computers throughout the Department of Justice (DOJ) in response to
concerns about the DOJ’s accountability for such property. Therefore, the
OIG conducted separate audits of the controls over weapons and laptop
computers at the Federal Bureau of Investigation (FBI), the Drug
Enforcement Administration (DEA), the Federal Bureau of Prisons (BOP), and
the United States Marshals Service (USMS). 26 The OIG issued separate
reports on each component and an overall report summarizing the results
from each audit.

      In August 2002, we issued our report on the FBI’s control over
weapons and laptop computers. 27 Our report disclosed significant losses of
weapons and laptop computers and examined the inadequacy of the FBI’s
response to these losses. The report concluded that the FBI’s procedures to
prevent the loss of inventory were not adequate. Specifically, we found that
the FBI:

       •    identified 212 functional weapons, 142 inoperable training weapons,
            and 317 laptop computers as lost, missing, or stolen for our 28
            month review period.

       •    did not always report missing items to the DOJ or enter lost and
            stolen weapons and laptop computers into the National Crime
            Information Center (NCIC) database. 28

       •    did not have policies requiring the reporting of lost or stolen laptop
            computers to its Office of Professional Responsibility (OPR), and
            was not investigating these incidents in a timely manner.

       26
           The OIG also conducted a property audit, including weapons and laptop
computers, of the Immigration and Naturalization Service (INS), but the report was issued
prior to the Attorney General’s request. Department of Justice, Office of the Inspector
General. Audit Report 01-09, Immigration and Naturalization Service Management of
Property, March 2001. The INS was transferred to the Department of Homeland Security in
2003.
       27
          Department of Justice, Office of the Inspector General. Audit Report 02-27, The
Federal Bureau of Investigation’s Control over Weapons and Laptop Computers, August
2002.
       28
           NCIC is a computerized index of criminal justice information, including criminal
history information, fugitives, stolen property, and missing persons, that is available to
federal, state, and local law enforcement and other criminal justice agencies.


                                            -1-
       •    had not established deadlines for reporting losses.

       •    was not conducting physical inventories as required.

       •    was not reconciling its property records to its financial records.

       •    was not always ensuring that exit procedures were followed for
            separating employees to ensure that they returned all issued
            property.

       •    could not provide documentation to establish whether excessed
            laptop computers were properly disposed of as required.

      To address these deficiencies, we recommended that the FBI:
(1) revise its policy for protecting equipment from loss and for disciplining
employees when they do not follow FBI policy; (2) establish deadlines for
reporting, documenting, and investigating losses; (3) ensure it conducts
periodic inventories; (4) reconcile the property records to the financial
records; (5) ensure that departing employees return all property that was
entrusted to them; and (6) improve documentation showing that excess
property had been properly disposed. The FBI agreed with these
recommendations and outlined a plan for taking corrective action.

Background

      As of March 31, 2006, the FBI employed 12,515 Special Agents and
17,915 support personnel located in 56 field offices across the United States;
the Training Academy at Quantico, Virginia; over 50 international offices;
and FBI headquarters in Washington, D.C. In December 2005, the FBI
reported that 52,263 weapons and 26,166 laptop computers were assigned
to FBI offices and employees located around the country and abroad. 29

       The FBI’s inventory of weapons includes semi-automatic pistols, rifles,
carbines, shotguns, tear-gas guns, and submachine guns. The term
“weapons” includes not only those used operationally, but also training
weapons that the FBI refers to as “red handles,” which are incapable of firing
live ammunition. In this report, we treat functional weapons and inoperable
training weapons separately. 30

       29
            See Appendix VIII for an analysis of FBI assigned weapons and laptops.
       30
          Training weapons include those that fire only blanks or paint-marking munitions.
The FBI’s Firearms Training Unit (FTU) considers it unlikely that anyone would convert a
training weapon to a functional weapon because the conversion would be more expensive
than the cost of a new functional weapon. Further, the conversion would require the


                                            -2-
      Laptop computers are assigned to most FBI special agents and many
other FBI employees. Among other things, agents use laptops to prepare
investigative reports, access various law enforcement databases, and
support electronic surveillance activities.

Property Management Application System

      The Office of Management and Budget Circular A-123 requires federal
agencies to: (1) establish a management control system that provides
reasonable assurance that assets are safeguarded against waste, loss,
unauthorized use, and misappropriation; and (2) ensure that transactions
are promptly recorded, properly classified, and accounted for in order to
prepare timely accounts and reliable financial and other reports. 31 The
Justice Property Management Regulations require that DOJ components
issue detailed operating procedures to protect federal property against
fraud, waste, and abuse. 32

      The FBI guidelines for the general management of property are
contained in its:

       •    Accountable Property Manual,

       •    Manual of Investigative Operations and Guidelines, and

       •    Manual of Administrative Operations and Procedures (MAOP).

      According to these guidelines, FBI employees are responsible for the
proper and reasonable care and safeguarding of property assigned to them
or located in their work area. An employee whose negligence causes the
loss of FBI property may be subject to disciplinary action.

     The FBI’s Accountable Property Manual defines the three principal
categories of property as:

       •    Capitalized Property which has an initial acquisition value of
            $25,000 or more, and that must be posted to the general ledger
            and accounted for on the annual financial statements;

services of a skilled gunsmith and parts that are available only from the manufacturer or
from a licensed gun dealer.
       31
          Office of Management and Budget. “Management’s Responsibility for Internal
Control,” Circular A-123, December 21, 2004.
       32
            Department of Justice Order (DOJ Order) 2400.3, dated August 6, 1998.


                                           -3-
       •    Accountable Property which, because of its value or nature, must
            be accounted for on an individual basis in the Property Management
            Application (PMA). The PMA is an automated system that accounts
            for all property that the FBI acquires, transfers, and retires. 33 The
            FBI treats both weapons and laptop computers as accountable
            (non-expendable) property.

       •    Expendable Property such as supplies and equipment that are
            normally consumed within a 1-year period. 34

Designated Property Management Employees

      According to the Accountable Property Manual, the Chief of the
Property Procurement and Management Section, located within the Finance
Division, is the Property Management Officer (PMO) for the FBI. The PMO is
responsible for administering the FBI’s Property Management Program and
ensuring that controls are adequate for accounting for FBI property.

       Within each field office or headquarters unit, the Special Agent in
Charge or an Assistant Director is designated as the Accountable Property
Officer (APO). An APO is responsible for coordinating property management
activities and providing leadership and guidance to ensure effective internal
control procedures are in compliance with FBI requirements. An APO also
ensures property records are created, and the property management
program within their office is in compliance with the FBI’s Accountable
Property Manual and MAOP.

      To assist them in the performance of their duties, APOs may designate
one or more Property Custodians or Supply Technicians, depending on the
size and complexity of an office. In addition, the Accountable Property
Manual states that FBI employees are responsible for safeguarding property
within their control.

      According to the MAOP, the loss, misplacement, theft or destruction of
government property issued to any employee must be reported to his or her
superior within 5 calendar days of the loss, misplacement, theft or
destruction. The division or field office must report the loss, misplacement,
theft or destruction on a Form FD-500, Report of Lost or Stolen Property

       33
          The PMA uses a variety of data fields to identify each item, including a barcode
number assigned by the FBI, serial number, cost center code for the office where the item is
located, description of the item, and other necessary information.
       34
            The FBI Accountable Property Manual, Introduction and Section 2, paragraphs 2-4
and 2-22.


                                            -4-
form, to the Asset Management Unit, Property Procurement and
Management Section, Finance Division within 10 calendar days. The APO for
the division or field office must sign the Form FD-500. In addition, the
Security Division is required to be notified when laptop computers have been
reported lost or stolen.

      Once a loss is reported to the Asset Management Unit, the Property
Management Officer is responsible for ensuring that all necessary
information is obtained and it is forwarded to the proper headquarters units
responsible for investigating and reviewing the losses. Also the PMO is
responsible for updating the PMA to reflect the property loss.

       Once a laptop loss is reported to the Security Division, the Security
Compliance Unit is responsible for initiating an inquiry to the respective field
office regarding the loss to assess the contents of the laptop, whether or not
the laptop contained sensitive or classified information, and if National
Security Information has been compromised.

        Automated System – The FBI employs the automated PMA “to
properly and accurately account for all property that the FBI acquires,
transfers, and retires.” 35 Information contained in the PMA includes the
description, serial number, barcode number assigned by the FBI, code for
the office where the item is located, and other necessary information. The
PMA can produce a “Property Charged Out” report for any active or
separated employee showing all accountable property that had been, or is
still, assigned to that employee.

       The FBI’s Firearms Training Unit supplements the PMA with an index
card for each weapon in its inventory. Like the PMA, the index cards include
the serial number, barcode number (if applied to the weapon), individual or
office to whom the property is assigned, and the final disposition of the
weapon. The index card also includes details of any repairs that had been
made to the weapons.

Audit Approach

       The FBI had the greatest number of losses, as well as the most
significant deficiencies in controls, of all the DOJ components we reviewed in
our 2002 audits of controls over weapons and laptops. 36 We conducted this
follow-up audit to assess the FBI’s progress in addressing the deficiencies we

      35
           Accountable Property Manual, Section 2, Paragraph 2-38.
      36
         The problems in the INS were comparable, but INS functions were transferred to
the Department of Homeland Security in 2003.


                                           -5-
identified related to its control over weapons and laptops. 37 Our follow-up
audit focused on a 44-month review period (February 1, 2002, through
September 30, 2005).

        In this follow-up audit, we interviewed FBI officials, reviewed
documents, and tested controls at the FBI Headquarters in Washington,
D.C., the Training Academy at Quantico, Virginia, and field offices in
Chicago, Illinois; Los Angeles, California; Miami, Florida; New York, New
York; and Washington, D.C. Fifty two percent of all weapons and 54 percent
of all laptop computers were assigned to these offices.

       Our audit examined actions taken in response to the identification of
lost or stolen weapons and laptop computers. We reviewed the FBI’s current
procedures for responding to reports of missing weapons and laptop
computers to determine whether losses are being reported in accordance
with prior recommendations. We also queried NCIC and the Bureau of
Alcohol, Tobacco, Firearms and Explosives (ATF) National Tracing Center to
identify lost or stolen FBI weapons that were recovered or used in the
commission of a crime. 38 For laptop computers, we queried NCIC to identify
recovered property and assessed whether national security or investigative
information may have been compromised. We address these issues in
Finding I.

      In addition, we reviewed the FBI’s internal controls over accountable
property, exit procedures for departing employees, and disposal of property.
Our assessment included physically verifying a sample of weapons and
laptop computers. We also tested the accuracy and completeness of the
property records. The results of these analyses are presented in Finding II.




       37
         Appendix I contains more information on the current audit’s objectives, scope,
and methodology.
       38
           The ATF National Tracing Center tracks the history of recovered crime guns for
federal, state, local, and international law enforcement agencies.


                                           -6-
                     FINDINGS AND RECOMMENDATIONS

I.     FBI’S RESPONSE TO WEAPON AND LAPTOP LOSSES

       Our 2002 audit found that over a 28-month period the FBI lost
       or had stolen 354 weapons and 317 laptop computers. Our
       follow-up audit found that over a 44-month period the FBI lost or
       had stolen 160 weapons and 160 laptop computers, including 10
       that contained sensitive or classified information. We noted
       improvements in the rate of loss for each category of equipment
       except for stolen laptop computers, which increased slightly.
       However, we found that the FBI did not know whether many of
       the laptop computers that were reported lost or stolen contained
       sensitive or classified information. We also found that the FBI
       has not taken adequate corrective action on several
       recommendations outlined in the 2002 audit report. As a result
       of our 2002 audit, the FBI established deadlines for reporting
       lost and stolen weapons and laptop computers, entering those
       losses into NCIC, and referring the losses for investigation. But
       this follow-up audit determined that the FBI did not consistently
       follow those procedures.

Rate of Weapon and Laptop Losses

      To determine whether the FBI has made progress in reducing the
number of lost and stolen weapons and laptop computers, we first compared
the rate of loss from our 2002 audit to this follow-up audit. We found that,
except for stolen laptop computers, the rate of loss decreased, as detailed in
the following table. 39




       39
         Because the audit periods were different lengths, we analyzed the rate of loss on
a monthly basis.


                                           -7-
                     MISSING WEAPONS AND LAPTOP COMPUTERS
                        2002 AUDIT VS. FOLLOW-UP AUDIT 40
                          Number of Lost or Stolen Items    Losses Reported Per
                                     Reported                      Month
                          2002 Audit        Follow-up Audit  2002     Follow-up
     Category
                      (28 Month Period)   (44 Month Period)  Audit      Audit
Lost Functional
                              107                      48              3.82         1.09
Weapons
Stolen Functional
                              105                      94              3.75         2.14
Weapons
Lost Training
                              142                      18              5.07         0.41
Weapons
Stolen Training
                                0                      0                0            0
Weapons
     Total Lost or
                              354                    160 41
  Stolen Weapons


Lost Laptop
                              300                     116             10.71         2.64
Computers
Stolen Laptop
                               17                     44               0.61         1.00
Computers
     Total Lost or
                              317                     160
   Stolen Laptops
Source: OIG analysis of FBI data

      We noted improvements in the rate of loss for each category of
equipment except for stolen laptop computers, which increased slightly.
However, despite the FBI’s progress in decreasing the rate of loss for
weapons and laptops, the FBI still reported 160 weapons and laptops that
were lost or stolen. We recognize that in an organization the size of the FBI,
some weapons and laptops will inevitably be stolen or go missing. However,

       40
          Our review period for the 2002 audit covered 28 months, from October 1, 1999,
to January 31, 2002. Our review period for our follow-up audit covered 44 months, from
February 1, 2002, to September 30, 2005.
       41
           The FBI objected to the inclusion of 43 of these 160 weapons because while they
were reported as lost or stolen during our 44 month follow-up period, the loss actually
occurred before our follow-up period. We did not delete these weapons from the table
because: (1) the losses were not categorized as such in the FBI's official property
management system until after the beginning of our follow-up period, (2) our approach in
the follow-up audit was consistent with our approach in the 2002 audit, which also included
weapons that were reported as lost or stolen during our review period, (3) none of these 43
weapons were included in the 354 lost or stolen weapons reported in the 2002 audit, (4) to
delete them would give the appearance that the FBI had 43 fewer lost or stolen weapons
than was actually the case.



                                           -8-
it is important that the FBI take appropriate steps to minimize these losses.
When losses occur, the FBI must timely report the loss, be able to identify
the contents of lost laptops, and determine whether the laptop is encrypted.
In addition, the FBI must investigate these losses and thefts, enter required
data into the National Crime Information Center (NCIC), and report the
losses to DOJ as required.

      We found that the FBI has not taken adequate corrective action on
several recommendations outlined in our 2002 audit report. Further, the FBI
did not determine for all of its lost or stolen laptop computers whether they
contained sensitive or national security information. All users of FBI laptop
computers had access to sensitive information and the equipment was
authorized for processing classified information up to the Secret level. The
FBI does not know which of its laptop computers actually contained classified
information. 42

      In the following sections, we report on: (1) the circumstances
surrounding each FBI weapon and laptop loss, (2) the contents of the lost or
stolen laptop computers, (3) the FBI’s internal and external loss-reporting
process, including entry into NCIC, and (4) the FBI’s efforts to investigate
losses.

Weapons Losses

     In our 2002 audit, we noted that in many instances the loss of
weapons was preventable because employees either did not adequately
safeguard property that had been assigned to them or follow FBI policies.
Our 2002 audit also found five instances in which lost or stolen FBI weapons
were subsequently used in the commission of a crime.

      As shown in the table below, for the current review period 94 of 160
(59 percent) missing weapons were stolen from FBI vehicles, private
vehicles, or employee residences. These lost and stolen weapons included
handguns, rifles, shotguns, and submachine guns. Pistols accounted for 133
of the 160 (83 percent) lost weapons.




       42
           As we explain in Finding II, the FBI did not maintain records indicating which of
its laptop computers were authorized to process National Security Information.


                                            -9-
                       LOST AND STOLEN WEAPONS BY TYPE
                  FEBRUARY 1, 2002, THROUGH SEPTEMBER 30, 2005
                                           Submachine
                         Pistol Shotgun        Gun      Rifle              Total
     Lost:
      Unexplained Loss        40         3            0           0         43
      Miscellaneous 43        23         0            0           0         23
               Subtotal       63         3            0           0         66

     Stolen:
      From FBI Vehicle        28         6            5           7         46
      From Residence          11         0            0           0         11
      From POV 44             11         1            0           0         12
      Other 45                20         3            1           1         25
               Subtotal       70        10            6           8         94

            Total           133       13             6             8       160
    Source: OIG analysis of FBI Forms FD-500 (Reports of Lost and Stolen Weapons)

      Although our follow-up review of FBI files found instances where thefts
occurred despite reasonable precautions taken by FBI employees, we also
found examples of lost or stolen weapons that resulted from employees’
carelessness or failure to follow FBI policy. Details of those losses are listed
in Appendix III.

Laptop Computers Losses

       In March 2001, the FBI Director issued a memorandum requiring that
all losses of laptop computers be reported to OPR because, “the loss of a
laptop with classified or sensitive information could be potentially more
damaging to the FBI than a lost weapon.”

       The FBI also issued a memorandum dated November 1, 2002,
outlining circumstances under which employees would be held accountable
for the cost of the lost or stolen property. The memorandum stated that
employees were responsible for securing property assigned to them and
would be personally responsible for the value of any property that was lost,
stolen, or not returned to the government.



      43
           Includes 18 inoperable training weapons.
      44
           Privately Owned Vehicle.
      45
          These weapons were lost under a variety of circumstances. For example, one
weapon was stolen from a rental car. Another was stolen from a Special Agent’s desk
drawer at a field office.


                                             - 10 -
      Similar to the reports of lost and stolen weapons, many laptop
computer losses could have been avoided had employees been more careful
or had followed FBI policies. Details of these losses are listed in
Appendix IV.

      As shown below, we were unable to determine the circumstances of
the losses for 116 of 160 missing laptop computers (72 percent) because
FBI documentation did not include a description of how the item was lost.
Sixty-two of these laptops were identified as lost when the FBI conducted its
biennial inventories. The remaining 44 laptop computers (28 percent) were
stolen from vehicles and other locations.

                     LOST AND STOLEN LAPTOP COMPUTERS
                                BY LOSS TYPE
                FEBRUARY 1, 2002, THROUGH SEPTEMBER 30, 2005

                                                      Total
                         Lost:
                          Unexplained Loss             116

                         Stolen:
                          From FBI Vehicle              23
                          From Residence                 4
                          Other 46                      17
                                    Subtotal            44

                                  Total                160
                       Source: OIG analysis of FBI Forms FD-500

Reporting Weapons and Laptop Computer Losses

       During our initial review in 2002, we found that the FBI did not specify
deadlines for submitting the Report of Lost or Stolen Property form (Form
FD-500) to report loss of property. As a result, we recommended that the
FBI establish and adhere to firm deadlines to ensure that: (1) employees
promptly report the loss or theft of FBI property to their supervisors;
(2) supervisors report losses or thefts to headquarters units, including the
Firearms Training Unit, OPR, the Asset Management Unit, and the Security
Division; (3) OPR initiates and completes an investigation into the loss; and
(4) information from the Form FD-500 is entered into NCIC.



      46
          These laptop computers were stolen under a variety of circumstances. For
example, one laptop was stolen from a hotel room. Another was stolen from a Special
Agent’s privately owned vehicle.


                                         - 11 -
       In response, the FBI revised its policy on August 14, 2002, requiring
that employees report lost or stolen weapons and laptop computers to their
division or field office within 5 days after discovery of the loss. Division or
field offices, in turn, are required to submit a Form FD-500 to the Asset
Management Unit within 10 days of the loss. All losses of weapons and
laptop computers are required to be entered into NCIC and forwarded to the
Inspection Division for investigation. 47 Laptop computer losses are required
to be reported to the Security Division.

       We reviewed the reporting actions that the FBI took in response to the
lost or stolen weapons and laptop computers by examining the Forms
FD-500. We assessed whether the loss was reported to the Asset
Management Unit, entered into NCIC, referred for investigation, and if a
laptop, reported to the Security Division. The table below categorizes our
findings.

                       FBI REPORTS OF THE LOSS OR THEFT OF
                         WEAPONS AND LAPTOP COMPUTERS
                   FEBRUARY 1, 2002, THROUGH SEPTEMBER 30, 2005




   WEAPONS
                                                            157                      3
     Submitted a Loss Report
     Entered the Loss into NCIC                       137                       23
     Referred the Loss to                            128                       32
     OPR/Inspection Division                                                              Yes
                                                                                          No
   LAPTOP COMPUTERS
                                                           152                       8
     Submitted a Loss Report
     Entered the Loss into NCIC   24                              136
     Referred the Loss to              38                           122
     OPR/Inspection Division




 Source: OIG analysis of FBI data

      Of the 160 missing weapons, the FBI was able to provide Forms
FD-500 for 157 weapons. The remaining three weapons were missing the
required forms. We asked the Asset Management Unit officials about the
missing forms and were told that they existed at one point but at the time of

       47
           Since the issuance of our initial audit report in 2002, the FBI reorganized OPR and
the Inspection Division. In February 2004, the FBI transferred the responsibility for
investigations of alleged employee misconduct from OPR to the Inspection Division. The
OPR continues to be responsible for adjudicating disciplinary matters.


                                            - 12 -
our review they could not be found. Despite not having the Forms FD-500,
the Asset Management Unit retained minimal information regarding the
weapon losses, such as the serial numbers, by recording that information
onto a list that was provided to us during our follow-up review. Of the 157
for which there was a Form FD-500, we found:

       •    18 were reported using an outdated Form FD-500. 48 The old form
            did not capture critical information such as the date of loss, NCIC
            entry, and whether OPR was notified.

       •    92 weapon losses were reported on the new Form FD-500.
            However, 51 of the 92 new Forms FD-500 were incomplete because
            the individual preparing the form did not enter critical information
            such as the date of loss, NCIC entry, and whether the loss was
            referred to OPR for investigation.

       •    54 were reported late—more than the required 10 days—thus
            possibly delaying timely investigation regarding the circumstances
            of the loss. See Appendix V for details on the number of days
            losses were reported late.

      Of the 160 missing laptop computers, the FBI was able to provide
Forms FD-500 for 152 laptops, while 8 laptops were missing the required
form. Similarly, we asked the Asset Management Unit officials about the
missing forms and were told that they existed at one point but at the time of
our review, they could not be found. Despite not having the Forms FD-500,
the Asset Management Unit retained minimal information regarding the
laptop losses, such as barcodes and serial numbers, by recording the
information onto a list that was provided to us during our follow-up review.
Of the 152 that were reported using a Form FD-500, we found:

       •    24 were reported using an outdated Form FD-500. 49 The old form
            did not capture critical information such as the date of loss, NCIC
            entry, and whether OPR was notified.




       48
           The Form FD-500 was updated on July 24, 2002, to include new fields. An
additional 47 FD-500’s submitted prior to July 24, 2002 did not contain critical information
such as the date of loss, NCIC entry, and whether OPR was notified.

       49
          An additional 21 Forms FD-500 that were submitted prior to July 24, 2002 did not
contain critical information such as the date of loss, NCIC entry, and whether OPR was
notified.



                                           - 13 -
      •   107 laptop losses were reported on the new Form FD-500.
          However, 82 of the 107 new Forms FD-500 were incomplete
          because the individual preparing the form did not enter critical
          information such as the date of loss, NCIC entry, and whether the
          loss was referred to the Security Division as well as OPR for
          investigation.

      •   38 were reported late—more than the required 10 days—thus
          possibly delaying timely investigation regarding the circumstances
          of the loss. See Appendix VI for details on the number of days
          losses were reported late.

      Regarding the reporting process for both weapons and laptop
computers, Asset Management Unit officials explained that the field offices
are responsible for submitting complete, accurate, and timely Forms FD-500.
According to these officials, the Asset Management Unit’s responsibility is
essentially to ensure that property is accurately tracked in PMA. However,
this understanding is contrary to the duties and responsibilities that have
been assigned to the PMO in the Accountable Property Manual. The
Accountable Property Manual states that the PMO is responsible for the
overall administration, coordination and control of the FBI’s Property
Management Program. For a comprehensive listing of the lost and stolen
weapons and laptops, see Appendices V and VI.

       Thus, although the FBI strengthened its policy for reporting lost or
stolen weapons and laptop computers by revising the Form FD-500 and
establishing a new 10 day policy for reporting losses, the FBI did not ensure
that its staff consistently used the revised form or reported the loss within
10 days, as required. We recommend that the FBI ensure that its staff
prepare complete and accurate loss reports using the latest version of the
Form FD-500 and submit those reports to the appropriate offices in a timely
manner.

Contents of Lost or Stolen Laptop Computers

      Our review of the 152 Forms FD-500 for lost and stolen laptops
revealed that 101 were identified as not containing sensitive or classified
information, 43 were not marked as either containing or not containing
sensitive or classified information, and 8 were marked as containing




                                    - 14 -
sensitive or classified information. 50 We asked the Security Division for any
information that it had on the 160 laptop losses. We were provided limited
information on only 12 laptop losses that the Security Division reviewed.
Two of the 12 laptop losses that the Security Division reviewed were initially
part of the 101 that were identified on the Forms FD-500 as not containing
sensitive or classified information. The Security Division determined that
these two laptop computers did contain sensitive, but unclassified
information. Therefore, we added these two laptop losses to the eight that
were identified on the Forms FD-500 as containing sensitive or classified
information. Details related to the 10 laptops are provided in the table
below.




       50
           In addition to the 43 laptop losses for which the Forms FD-500 were not marked
to indicate whether the laptops contained or did not contain sensitive or classified
information, there were 8 laptop losses for which the Property Management Unit did not
retain the Forms FD-500 and had no information on whether these laptops contained or did
not contain sensitive or classified information. Therefore, we combined these 8 laptop
losses to the 43 and discuss the FBI’s response to these losses in more detail later in our
report in the 51 Laptop Losses section.


                                          - 15 -
                              DETAIL ON LAPTOP LOSSES
                   CONTAINING SENSITIVE OR CLASSIFIED INFORMATION
                             Office
              Date of      Reporting    Type of                              Nature of
  No.          Loss           Loss       Loss      Encrypted?                 Contents
                         Boston                                 Software for creating
   1          07/12/02                  Stolen            Yes
                         Field Office                           identification badges. 51
                         Indianapolis
   2          09/02/02                   Lost       Unknown     Unknown
                         Field Office
                         New Orleans                            Used to process surveillance-
   3          09/24/02                  Stolen      Unknown
                         Field Office                           related electronic digital imaging.
                         Phoenix
   4          07/15/03                   Lost       Unknown     Unknown
                         Field Office
                         Security                               System security plan for an
   5          03/11/04                  Stolen            Yes
                         Division                               electronic access control system.
                         Washington
   6          05/19/04                   Lost       Unknown     Unknown
                         Field Office
                                                                Unknown - SCU determined
                         Security
  7 52        05/06/05                   Lost       Unknown     contents to be sensitive, but
                         Division
                                                                unclassified.
                                                                Unknown - SCU determined
                         CJIS
  8 53        06/24/05                  Stolen            Yes   contents to be sensitive, but
                         Division
                                                                unclassified.
                                                                Unknown - SCU determined
                         San Diego
   951        08/21/05                  Stolen      Unknown     contents to be sensitive, but
                         Field Office
                                                                unclassified.
              Unknown    Quantico
                                                                Names, addresses, and telephone
   10         (approx.   Laboratory     Stolen      Unknown
                                                                numbers of FBI personnel.
               07/02)    Division
Source: FBI Forms FD-500

      As previously stated, 8 of the 10 laptop losses were identified on the
Forms FD-500 as containing sensitive or classified information the Forms
FD-500 for these eight laptop losses did not specifically make a distinction as
to whether the sensitive information included National Security Information
(NSI). We asked Asset Management Unit and Security Division officials
whether they could identify if any of the eight laptops did in fact contain

         51
           The Form FD-500 for the laptop loss from the Boston Field Office was marked to
indicate that it did not contain sensitive/classified information and that it did contain
sensitive/classified information. Because both answers are mutually exclusive and the
description of the contents was consistent to information that can be considered
sensitive/classified, we considered this laptop as containing sensitive/classified information.
         52
          The Forms FD-500 for these laptop losses indicated that the corresponding
laptops did not contain sensitive or classified information. However, according to
subsequent information that we obtained from the Security Division’s Security Compliance
Unit (SCU), the SCU concluded that the laptops contained sensitive but unclassified
information.
         53
          The laptop computer that was reported as being stolen from the Criminal Justice
Information Services (CJIS) Division was also the only laptop computer reported to
DOJCERT.


                                                 - 16 -
National Security Information. The Security Division provided us information
to indicate that the laptop loss reported by the CJIS Division on June 24,
2005, contained sensitive but unclassified information. 54 FBI officials did not
know whether the remaining seven laptops that were identified as sensitive
actually contained National Security Information. 55

      According to OPR and Investigation Division records, the FBI
investigated 6 of the 10 laptops losses that were known to contain sensitive
or classified information. 56 Of the six laptop losses that were investigated,
one resulted in a 3-day suspension, two investigations were pending as of
February 2006, and three resulted in no action taken against the employee.
The FBI did not investigate the remaining four losses, including the laptop
computers that contained personal identifying information of FBI personnel
and software for creating identification badges. 57

       Similarly, we asked FBI Security Division officials if they conducted any
type of review to determine the contents of the remaining seven laptop
losses or to assess the potential damage to national security and the FBI’s
operations. Security Division officials stated that they are reviewing the
Forms FD-500 and contacting the appropriate field offices to determine what
kind of information was on the laptops. However, the Security Division
officials informed us that because these losses occurred some time ago it is
doubtful that the FBI would still have information about the content of the
laptops.


       54
           The CJIS Division laptop loss was also included as one of the 12 laptop losses that
the Security Division reviewed. Of the 12 laptop losses that the Security Division examined,
only 3 were identified as containing sensitive information. Five of the 12 laptops were
determined by the Security Division to not contain sensitive or classified information and for
the remaining 4; the Security Division did not know whether the laptops contained any
sensitive or classified information.
       55
           According to the FBI Security Handbook, sensitive information is information that,
if disclosed, could adversely affect the ability of the FBI to accomplish its mission. Examples
of sensitive information might be the identity of undercover agents, names of people under
investigation, tax return information, or personal data on individuals. Classified information
(National Security Information) is information that has been determined pursuant to
Executive Order 12958 or any predecessor order to require protection against unauthorized
disclosure and is marked to indicate its classified status when in documentary form. For
further details on the classification levels of Classified National Security Information see
Appendix XVII.
       56
           OPR investigated laptop losses that are referred to in the above table as numbers
2, 3, 4, 8, and 9.
       57
          See Appendix IV for a detailed description of the disciplinary action taken relating
to the 160 FBI laptops that we identified in our follow-up audit as being lost or stolen.


                                            - 17 -
51 Laptop Losses

      The Forms FD-500 for 43 of the 51 laptop computers did not indicate
whether the laptops contained sensitive or classified information, as
required. The employee who completed the form did not check the box to
indicate whether sensitive or classified information was or was not contained
on the laptop, nor did the Accountable Property Officer or the Asset
Management Unit complete that section of the form when it was submitted.
An analysis of the 51 laptop computers is provided in the table below. 58

                       ANALYSIS OF THE 51 LAPTOP COMPUTERS
                UNKNOWN TO HAVE SENSITIVE OR CLASSIFIED INFORMATION
                                        Assigned
                                           To
                 Category               Employee         Unassigned         Total
           Unexplained Losses 59            3                22              25
           Loss Identified During
                                             5                 16            21
           Physical Inventory
           Stolen from Vehicle               1                  1            2
           Stolen from FBI Office            0                  1            1
           Other                             2                  0            2
            TOTAL                           11                 40            51
           Source: FBI Forms FD-500

      Seven of these 51 laptop computers were assigned to divisions within
the FBI that handle some of the most sensitive information related to
national security. Six of the 51 laptop computers were assigned to the
Counterintelligence Division and 1 was assigned to the Counterterrorism
Division. Yet, the FBI did not know the content of these computers or
whether they contained sensitive or classified information.

      Of these 51 laptops, 11 were referred to FBI’s OPR/Inspection Division.
Further, only two resulted in disciplinary action, including one letter of
censure and one 3-day suspension. The documentation maintained at OPR
did not contain the contents of these laptop computers.

      Even though the FBI has a policy requiring that employees disclose the
contents of lost or stolen laptops, this policy was not enforced. Most of the
Forms FD-500 as detailed in Appendix IV did not have a description of the
type of information contained on the laptop. This is a significant deficiency
because some of these laptops may have contained classified or sensitive

      58
            A more detailed analysis can be found in Appendix VIII.
      59
          Eight of the 22 laptops that were not assigned to an employee and for which the
loss was unexplained did not have Forms FD-500.


                                            - 18 -
information such as personally identifiable information or investigative case
files. 60 Without knowing the contents of these lost and stolen laptop
computers, it is impossible for the FBI to know the extent of the damage
these losses might have had on its operations or on national security.

      Aside from reviewing the Forms FD-500 we asked FBI officials if they
could determine the content of the 51 lost or stolen laptop computers and
whether they contained sensitive or classified information. FBI officials
explained that they did not maintain such information and therefore could
not determine the content of the laptops or whether sensitive or classified
information was contained on them. We asked FBI officials why they do not
have this information. Security Division officials speculated that its SCU may
not have been notified of the lost and stolen laptop computers and therefore
would not have followed up in determining the contents of the lost or stolen
laptops. However, our review of all 152 Forms FD-500 for lost and stolen
laptop computers found that 64 were marked as having been referred to the
Security Division.

       We also asked FBI officials why they do not go to the respective field
offices and divisions to obtain this information. As previously mentioned,
Security Division officials stated that they are reviewing the Forms FD-500
and contacting the appropriate field offices to determine what kind of
information was on the laptops.

       FBI officials acknowledged to the OIG that there was a breakdown in
obtaining the necessary information on the contents of the laptops that were
lost or stolen. The FBI Security officials suggested that part of the cause
may be attributed to the lack of a centralized unit within the FBI that could
identify the contents of lost or stolen laptops or make sure that Forms
FD-500 are complete and accurate. Further, the Security Division officials
stated that they have since started tracking this type of information with the
implementation of the Portable Electronic Device (PED) Application in June
2006. 61

       60
           Personally Identifiable Information is any information about an individual
maintained by an agency, including, but not limited to, education, financial transactions,
medical history, and criminal or employment history and information which can be used to
distinguish or trace an individual's identity, such as their name, social security number, date
and place of birth, mother’s maiden name, biometric records, etc., including any other
personal information which is linked or linkable to an individual.
       61
           The FBI deployed the Portable Electronic Device (PED) Application to register all
FBI electronic devices, including laptop computers. The PED Application draws baseline
information from the FBI’s PMA and requires users to register their assigned devices and to
indicate the security classification of each device.



                                            - 19 -
      We believe that the FBI was lax in adhering to its own policies of
reporting the contents of lost or stolen laptop computers. The FBI has to be
more diligent in ensuring that it responds appropriately and aggressively to
each laptop loss.

Entering Losses into NCIC

       The NCIC is a computerized database of criminal justice information,
such as stolen property, convicted offender registries, and an index of
individuals incarcerated in the federal prison system. The NCIC system is
generally regarded by law enforcement agencies as the primary method for
tracking stolen or recovered firearms. Criminal justice agencies enter
records into NCIC, which are then accessible to law enforcement agencies
nationwide. Data regarding lost or stolen weapons and laptop computers
should be promptly entered into NCIC. Failure to enter these items into
NCIC could result in reducing the chances of recovering the weapon or
laptop computer or identifying the weapon if it is used in the commission of
a crime. In addition, FBI policy states that lost and stolen laptops are
required to be entered into NCIC.

      Our 2002 audit found that 14 of the 276 (5 percent) lost or stolen
weapons had not been entered into NCIC. In our follow-up audit, we initially
found no NCIC records for 23 of the 160 (14 percent) lost or stolen weapons
and no NCIC record for 136 of the 160 (85 percent) lost or stolen laptops. 62
Of the 23 weapons and the 136 laptop computers, 11 weapons and 16
laptop computers had an NCIC number recorded on the corresponding Form
FD-500, but we did not find a record in NCIC. 63 For a detailed listing of the
weapons and laptops that were not found in NCIC see Appendices IX and X.

      At our exit conference, FBI officials stated that 10 of the 23 weapons
currently do not have a record in NCIC. Specifically, the FBI provided us
information on the following:

       •    6 weapons had active records, 3 of which occurred as a result of
            our review.



       62
           In our prior audit, we did not determine whether lost or stolen laptop computers
were entered into NCIC because there was no requirement at the time to enter lost or
stolen laptop computers into the NCIC.
       63
          An NCIC number is a unique record number that is assigned to an entry made
into NCIC.



                                           - 20 -
      •    7 weapons were recovered and the record was purged from NCIC
           as a result.

      •    3 weapons were not entered into NCIC. 64

      •    7 weapons were at one point entered into NCIC but later purged
           with no explanation.

      We also queried NCIC to determine whether the lost and stolen
weapons and laptop computers were recovered and, for the weapons,
whether they were used in the commission of a crime. We identified no
instances where law enforcement recovered any of the 160 lost or stolen
weapons, or the 160 lost or stolen laptop computers. Therefore, we could
not conclude whether any of the missing weapons were used in a crime.
However, after completion of our fieldwork, the FBI reported to us that
seven weapons had been recovered. Details of those weapons are listed in
Appendix III.

      Asset Management Unit officials explained that the field offices are
responsible for entering lost or stolen weapons and laptop computers into
NCIC. In our judgment, the FBI has improved its practice of entering lost or
stolen property into NCIC. However, 85 percent of the lost or stolen laptop
computers were not entered into NCIC, as required by FBI policy. The FBI
should immediately enter into NCIC its lost or stolen weapons and laptop
computers to ensure that any recovery of these property items will result in
the FBI being notified.

Referring and Investigating Losses

       Our 2002 audit found that losses of weapons and laptops were not
regularly referred to OPR and that disciplinary action was not taken when
individuals did not follow FBI policies concerning the handling of weapons
and laptops. As a result, we recommended the FBI revise its policy and
establish criteria for disciplining employees whose negligence resulted in the
loss or theft of a weapon or laptop. In response to our recommendation, the
FBI stated that it would require weapon and laptop losses to be referred to
OPR. 65


      64
          Two weapons were claimed to have been found and therefore not entered into
NCIC. However PMA continued to show these weapons as being lost or stolen and the FBI
did not provide evidence that these weapons were found. One weapon was inoperable and
disabled, although the FBI did not provide evidence of this.

      65
           MAOP, Part 2, 6-7.5.


                                        - 21 -
       OPR’s investigative responsibilities were transferred to the Inspection
Division in February 2004. Specifically, the Inspection Division is responsible
for investigating weapon and laptop losses while OPR is still responsible for
adjudicating disciplinary matters.

       Inspection Division officials told us that it delegates responsibility for
conducting most investigations of lost or stolen weapons and laptops to the
field office that reported the loss. If the results of the investigation warrant
disciplinary action, the case is forwarded to OPR for adjudication. Inspection
Division officials told us that in many cases the office that conducted the
investigation found no evidence of misconduct and consequently no
disciplinary action was taken.

        REFERRALS AND INVESTIGATIONS OF WEAPON AND LAPTOP LOSSES

                    Number                REFERRED                      INVESTIGATED
                     of Lost               Referred
                        or     Referred       to
                     Stolen       To      Inspection     Not        OPR/ID           Not
   Category         Items 66     OPR       Division    Referred   Investigated   Investigated

Lost Functional
Weapons               48         19          16          13            12             36
Stolen Functional
Weapons               94         50          35           9            58             36
Lost Training
Weapons               18          8           0          10            0              18
Stolen Training
Weapons                0          0           0           0            0               0
    Total Lost or
Stolen Weapons        160        77          51          32           70              90

Lost Laptop
Computers             116         9           9          98            13             103
Stolen Laptop
Computers             44         13           7          24            8              36
    Total Lost or
  Stolen Laptops     160 67      22          16          122          21             139
Source: OIG analysis of FBI data


       66
           Of the 160 weapon losses, 11 were reported lost and 35 were reported stolen
after February 2004. Of the 160 laptop losses, 42 were reported lost and 16 were reported
stolen after February 2004.
       67
           Of the 160 lost and stolen laptop computers, the FBI did not know whether 51 of
these laptops had sensitive or classified information. Of the 51, 37 were lost, 6 were stolen,
and the remaining 8 had no Forms FD-500 describing the loss as being either lost or stolen;
therefore, we included the 8 in the lost category. Also, of the 51, 11 were referred to
OPR/Inspection Division and from these 11 losses, 9 were investigated by OPR/Inspection
Division; for the remaining two, OPR/Inspection Division lacked sufficient information to
open an internal investigation.


                                            - 22 -
       The Inspection Division officials also stated that investigations were
not pursued if preliminary information indicated that there was no
negligence or misconduct on the part of the employee. For example, items
identified as lost or stolen during a physical inventory were not considered
by the Inspection Division to be indicative of negligence or misconduct.
Details of our review are explained below.

Weapons Loss

      The MAOP requires that each weapon loss must be referred to OPR.
However we found that 32 weapons (20 percent) were not referred.
Further, of the total 160 lost or stolen weapons OPR/Inspection Division
opened an internal investigation into 70 (43 percent) of those losses.
OPR/Inspection Division explained that it did not open an internal
investigation for the remaining 90 losses for the following reasons:

      •   22 losses did not receive requisite notification from field offices

      •   58 had no evidence of employee misconduct that would warrant an
          internal investigation

      •   10 were training weapons

      Of the 70 weapon losses that resulted in an internal investigation the
action taken was as follows:

      •   43 resulted in suspensions of the responsible employees, ranging
          from 3 to 7 days,

      •   17 resulted in no disciplinary action,

      •   5 resulted in the employees receiving a Letter of Censure,

      •   1 resulted in the employee being terminated, and

      •   4 investigations were still pending.

      We found it troubling that many of the weapon losses were not
referred to OPR/Inspection Division for investigation even though the
requirement in the MAOP clearly states that each weapon loss must be
referred to OPR. As we previously mentioned, FBI officials told us that they
do not investigate these losses because of insufficient information to indicate
possible misconduct or negligence by an employee or the fact that the
weapon was not specifically assigned to an employee.


                                      - 23 -
Laptops Loss

      The MAOP requires that each laptop loss must be referred to OPR. We
found that 122 laptops (76 percent) were not referred. Further, of the total
160 lost or stolen laptops OPR/Inspection Division initiated an internal
investigation into 21 (13 percent) of the losses. OPR/Inspection Division
explained that it did not initiate an internal investigation for 139 losses
because of the following reasons:

       •    122 losses did not receive requisite notification from field offices

       •    17 had no evidence of employee misconduct that would warrant an
            internal investigation

      Of the 21 laptop losses that resulted in an internal investigation the
action taken was as follows:

       •    3 resulted in 3-day suspensions of the responsible employees,

       •    11 resulted in no disciplinary action,

       •    1 resulted in the employee receiving a Letter of Censure, and

       •    6 investigations were still pending.

      Similar to lost or stolen weapons, OPR/Inspection Division explained
that cases are opened when there is sufficient evidence of an employee’s
misconduct, and that cases were not opened if the lost or stolen laptop was
not assigned to specific FBI personnel. 68

      We found it troubling that the overwhelming majority of laptop losses
were not referred to OPR/Inspection Division for investigation even though
the requirement in the MAOP clearly states that each laptop computer loss
must be referred to OPR. As we previously mentioned, FBI officials told us
that they do not investigate losses because of insufficient information to



       68
           When we began our follow-up audit, there were over 10,000 laptops that were
not specifically assigned to FBI personnel. All laptop computers are required to be charged
out in the PMA and assigned to individuals in an effort to strengthen accountability and
minimize unexplained losses. We found that as of March 2006, 37 percent of the FBI’s
laptop computers had not been recorded as being assigned to individuals. However, after
we inquired about this issue in March 2006, the FBI made a significant effort to assign the
laptop computers to specific individuals. Therefore, as of May 2006 less than 1 percent of
the FBI’s laptop computers were not assigned to individuals.


                                          - 24 -
indicate possible misconduct or negligence by an employee or the fact that
the laptop was not specifically assigned to a person.

      Based on the relatively low number of investigations initiated, the FBI,
in our judgment, has not been as diligent as it should be in investigating
weapon and laptop losses.

Lack of Centralized Oversight and Monitoring

       According to the MAOP, the Forms FD-500 are to be forwarded to the
attention of the FBI’s PMO. The PMO is responsible for reviewing the details
of lost and stolen items and requesting any additional information. In
addition, the Accountable Property Manual states that the PMO’s duties
include the overall administration, coordination and control of the FBI’s
Property Management Program, including: (1) ensuring that adequate
systems exist and are documented for accountability of property within the
FBI: and (2) communicating and monitoring internal controls of the FBI for
maintaining adequate property accountability.

       The FBI’s response to lost and stolen weapons and laptop computers
demonstrated several weaknesses that resulted in inadequate reporting of
weapon and laptop losses within the FBI. When reports were submitted,
there did not appear to be any type of review at the Asset Management Unit
to ensure that necessary information and documentation was received.
Also, there did not appear to be consistent treatment by the divisions and
field offices in notifying proper headquarters units, such as the Security
Division and the Inspection Division. These deficiencies could have been
avoided had the FBI provided more diligent oversight and monitoring in
addressing the weapon and laptop losses.

      The Asset Management Unit officials explained that its responsibility is
to track property as opposed to ensuring that all of the proper procedures
are followed for reporting lost and stolen items. However, we found this
understanding to be different from what the FBI’s Accountable Property
Manual prescribes. We recommend that the FBI ensure that the Asset
Management Unit provides oversight and monitoring for all weapon and
laptop losses.

Conclusion

      Our follow-up audit found decreases from our 2002 audit in the
number of losses and the loss rates for weapons and laptops. However,
while the number and rate of losses have declined overall, the amount is still



                                    - 25 -
significant, and we found that the FBI has not taken adequate corrective
action on several recommendations outlined in our 2002 audit report.

      For example, we found that many of the forms that were used to
report losses were incomplete, and critical information such as the date of
the loss, NCIC entry, and whether OPR was notified of the loss was not
provided by the divisions or field offices. Also, we found that the Asset
Management Unit was not able to find all Forms FD-500 related to the lost
and stolen weapons and laptop computers. The FBI was unable to
determine what was on many of the laptops. Even when some of the lost or
stolen laptops were identified as containing sensitive or classified
information, the Security Division examined few of these losses to determine
the damage that these losses may have had on the FBI’s operations and
national security.

      Weapons and particularly laptop computers were not always being
entered into NCIC. In addition, we found that weapon and laptop losses
were not consistently referred to OPR/Inspection Division for investigation.

Recommendations

      We recommend that the FBI:

1.    Ensure that the Asset Management Unit maintains all Forms FD-500
      with accompanying documentation and required information.

2.    Ensure that the most current version of the Form FD-500 is used to
      report weapon and laptop losses.

3.    Ensure that all Forms FD-500 that are submitted to the Asset
      Management Unit are complete, accurate and timely. Specifically, the
      FBI should ensure that the contents of the lost or stolen laptop
      computers accompany the Form FD-500.

4.    Revise the Form FD-500 to include:

      (a)   whether or not the loss was reported to the Inspection Division
            for investigation;

      (b)   separate designation for “sensitive” and “classified” categories;

      (c)   tracking of the classification level of NSI contained on a laptop;

      (d)   whether sensitive information contained personally identifying


                                    - 26 -
           information; and

     (e)   whether the lost or stolen laptop computer was protected with
           encryption software.

5.   Ensure that the Security Division performs a damage assessment of all
     laptops that are lost or stolen and maintains documentation on this
     information.

6.   Ensure that weapon and laptop losses are appropriately entered into
     NCIC.

7.   Assign to the Asset Management Unit monitoring responsibilities over
     weapon and laptop losses to ensure that all proper notifications are
     made.




                                  - 27 -
II.   INTERNAL CONTROLS

      In our 2002 audit, we reported that the FBI failed to give
      sufficient priority to property management. Periodic inventories
      of accountable property were not conducted, departing
      employees did not always return all property that had been
      issued to them, and the destruction of outdated, damaged, or
      excessed laptop computers was not adequately documented.
      Additionally, while the FBI documented the disposal of laptop
      computers, it did not adequately document that all sensitive or
      classified information had been sanitized prior to their disposal.
      In our follow-up audit we noted improvements in the areas of
      conducting physical inventories and reconciling property records
      to the financial records. However, we identified continued
      weaknesses in several areas. Specifically, the FBI failed to
      adequately: (1) maintain records on how many of its laptop
      computers were authorized to process NSI; (2) improve its
      documentation of the disposal of excess laptop computers and
      hard drives to ensure that all sensitive or classified information
      had been sanitized prior to disposal; (3) report weapon and
      laptop losses to the DOJ; (4) submit incident reports of lost or
      stolen laptop computers to DOJCERT; and (5) improve the
      process to ensure that property is recovered from employees
      before they leave FBI service.

Physical Inventories

      The DOJ Property Management Regulations requires all components to
conduct an annual physical inventory of all non-expendable personal
property. At the discretion of the component head, however, these
inventories can be conducted every 2 years rather than annually.

      The FBI’s regulations require an annual inventory of all sensitive
capitalized assets and sensitive property items, which include weapons and
laptop computers. The FBI is also required to conduct a full inventory of all
property and equipment every 2 years.

       In our 2002 audit report, we concluded that the FBI failed to give
sufficient attention to property management. The FBI chronically failed to
complete the required biennial physical inventories of accountable property.
Therefore, we recommended that the FBI conduct biennial inventories of
accountable property and implement a policy requiring annual inventories of
sensitive items, such as weapons and laptops.



                                    - 28 -
       The FBI concurred with our recommendations and notified all of its
divisions that, effective with the 2003 biennial inventory, completion of
biennial inventories of all accountable property and annual inventories of
sensitive items, including weapons and laptop computers, was required. The
policy also stated that the inventory of weapons would include issued
weapons as well as weapons stored in the gun vault.

       During our follow-up audit, we reviewed FBI-wide inventory reports for
the years 2003 through 2005. We noted that the FBI had completed
biennial inventories of all accountable property and annual inventories of
sensitive items, including weapons and laptop computers. We believe that
this completion of regular inventories improved the FBI’s ability to account
for and control its weapons and laptop computers.

Reconciling Property Records to the Financial System

       In our 2002 audit report, we determined that the FBI’s financial
system was not fully integrated with the PMA. As a result, the financial and
property management systems did not automatically verify whether the
number of items actually purchased agreed with the number of items placed
into inventory. We recommended that the FBI implement a policy requiring
that property records be reconciled with financial records to ensure the
completeness of the FBI’s property records.

      In response to this recommendation, the FBI stated that the Asset
Management Unit and Contract Unit would coordinate to ensure that the PMA
was updated manually to include purchases of non-capitalized property.
Further, FBI divisions were instructed to generate and review on-order
reports on a monthly basis to ensure that newly purchased property was
added to the PMA. 69 In addition, the Asset Management Unit generated
delinquent on-order reports and distributed them to the appropriate APOs for
follow-up.

      In our follow-up review, we determined that the FBI’s financial system
was still not fully integrated with the PMA, although all divisions currently
have the capability to generate an on-order report. In addition, we verified
that FBI divisions have been instructed to generate the report on a monthly
basis to review newly purchased property that should be placed in the PMA.
We also noted that the Asset Management Unit generates delinquent on-
order reports and distributes all copies to the APOs for follow-up. At the
time of our follow-up review the FBI, in collaboration with the DOJ, was

       69
         An on-order report reflects capitalized and non-capitalized property valued at
$1,000 and above, and also sensitive property that should be entered into the PMA.


                                          - 29 -
planning for future replacement of the Financial Management System and
PMA systems with the implementation of the Unified Financial Management
System (UFMS). The UFMS will replace financial systems DOJ-wide,
integrating them with property management systems. The FBI expects that
it will begin implementing the UFMS in December 2006. However, the
process will not be completed until October 2009 and the FBI is not
projected to begin processing transactions in the UFMS until Fiscal Year
2010.

       During our follow-up review, we judgmentally selected 10
disbursements for the purchase of weapons since February 1, 2002, traced
all the purchases to the PMA, and noted no discrepancies. The
disbursements related to the purchase of 455 weapons.

      We also judgmentally selected 10 disbursements for the purchase of
laptops since February 1, 2002, traced all the purchases to the PMA, and
again noted no discrepancies. The disbursements related to the purchase of
108 laptops.

      As a result of our follow-up review, we determined that the FBI had
implemented a sufficient policy requiring that property records be reconciled
to the financial records to ensure the property records are complete.

Accuracy and Completeness of Property Records in the PMA

       In our 2002 audit, we performed two tests to determine the accuracy
and completeness of the PMA. We judgmentally selected weapons and
laptop computers from the PMA and physically verified their existence. We
also judgmentally selected items that were physically located at selected
field and headquarters offices and traced them to the PMA. In our 2002
audit the FBI was able to provide all weapons and laptop computers for our
physical verification.

      During our follow-up audit, we performed the same two tests to
determine the accuracy and completeness of the PMA. First, we selected a
random sample of 497 weapons and 477 laptop computers from the PMA
and physically verified their existence. We evaluated property records and
property management activities at FBI headquarters and offices in New York,
New York; Los Angeles, California; Washington, D.C.; Chicago, Illinois; and
Miami, Florida. 70 We also tested the completeness of the property records
by selecting a sample of 10 weapons and 10 laptop computers held at each

       70
           The universe of weapons and laptop computers for each audited location and
details of our sample, by property type, location, and type of test, appear in Appendix II.


                                           - 30 -
of the field offices. We reviewed and traced them to the PMA and found no
discrepancies.

       To test the accuracy and completeness of the property records, we
selected a sample of 974 items – 497 weapons and 477 laptop computers –
recorded in the PMA and physically verified their existence. The FBI was
able to provide all weapons and laptop computers for our physical
verification, except for one weapon and two laptop computers assigned to
FBI headquarters for which they provided confirmations of their existence.
The following table summarizes our testing.

                                   TOTAL SAMPLE ITEMS TESTED
                 WEAPONS TESTED AND VERIFIED                LAPTOPS TESTED AND VERIFIED

 Location              PMA                  FLOOR                  PMA                 FLOOR

                Tested   Verified     Tested   Verified   Tested   Verified   Tested    Verified
 FBI HQ          260         260       10        10        348       348       10         10
 New York         69         69        10        10        42         42       10         10
 Los Angeles      55          55       10        10        29         29       10         10
 Washington,
                  44         44        10        10        24        24        10         10
 D.C.
 Chicago          36         36        10        10        16        16        10         10
 Miami            33         33        10        10        18        18        10         10
   TOTALS        497       497         60        60        477       477       60         60
Source: OIG analysis of FBI PMA data

      In addition to selecting a sample to verify the accuracy and
completeness of the property management records, we analyzed the
universe of 52,263 weapons and 26,166 laptop computer recorded in PMA as
of November 2005 to ensure that data was entered properly for each item,
including a barcode number assigned by the FBI, the serial number, the cost
center code for the office where the item is located, a description of the
item, and other necessary information. 71 For weapons, we found 260 cost
center names and 39 serial numbers were blank. For computers, we found
that 864 cost codes, 971 cost center names, 92 serial numbers and 38
model numbers were blank. There were also 10,424 laptop computers that
were not assigned to FBI personnel. However, during our audit the FBI took
corrective action to assign laptops to its personnel, and as of May 2006 the
FBI had only 124 unassigned laptop computers. 72



       71
          The PMA uses a variety of data fields to identify each item, including a barcode
number assigned by the FBI, serial number, cost center code for the office where the item is
located, description of the item, and other necessary information.
       72
            See Appendix X for an analysis of the FBI’s property records.


                                               - 31 -
Reporting Requirements for Laptop Computers Containing NSI

      In our 2002 audit, we reported that the FBI maintained records
indicating which of its laptop computers were authorized to process classified
information. Specifically, the FBI had a total of 10,003 laptop computers
with the following security levels: 5 Top Secret; 8,000 Secret; 1,711
unclassified; and 287 miscellaneous (damaged, no hard drive, unusable).
However, during our follow-up audit, FBI officials told us that they no longer
maintained this type of information.

      The DOJ’s Office of the Chief Information Officer (DOJ CIO) requires
the FBI to report the number of laptop computers it has authorized for
processing classified information. To ensure that the FBI complied with the
requirement, during our follow-up audit we requested this information from
the FBI and the DOJ CIO, but neither could provide it. FBI officials informed
us that they did not track such information and the DOJ CIO confirmed that
the FBI had not provided it to them. However, the DOJ CIO requested that
the FBI provide a report containing the information by June 4, 2006.

       Prior to DOJ’s CIO requests, the FBI deployed the PED Application to
register all FBI electronic devices, including laptop computers. The PED
Application draws baseline information from the FBI’s PMA and requires
users to register their assigned devices and to indicate the security
classification of each device. FBI officials told us that they are in the process
of completing the registration for the FBI’s approximately 23,000 laptops.
As of September 14, 2006, the FBI had provided information containing
classification levels for 1,925 of its approximately 25,000 laptop computers.

      Although the FBI deployed the PED Application to begin to track
security classification levels in June 2006, the FBI did not maintain records
indicating the classification of its laptop computers prior to the
implementation of the PED.

Reporting Losses to DOJ

DOJ Semiannual Theft Reports

      DOJ regulations require all components to submit to DOJ semiannual
reports summarizing thefts of government property that occurred within the
preceding 6 months from January 1 and July 1. In our 2002 audit, we found
that four of the five Semiannual Reports submitted by the FBI to the DOJ




                                     - 32 -
were submitted late, ranging from 6 to 106 days. 73 In addition, the
semiannual reports were inaccurate with respect to the number of weapon
and laptop losses. We recommended that the FBI submit complete,
accurate, and timely semiannual reports to the DOJ.

       Our follow-up review found that the FBI has not corrected these
deficiencies. The FBI did not submit a semiannual report for the period
between January 1, 2002, and June 30, 2002. The overall period covered by
the reports that we reviewed were submitted from July 1, 2002, through
December 31, 2005. We reviewed the seven semiannual reports submitted
by the FBI during the audit period and found all the reports to contain
incomplete and inaccurate information. Although the reports listed the
barcode numbers, descriptions, dollar values, and location of items, some
reports did not contain the date of the incident. Further, when the reports
asked whether corrective measures were taken to prevent repetition and the
status of the actions taken, the answer was given as “unknown.”

      During the period covered in our follow-up review, FBI records
documented the loss or theft of 160 weapons and 160 laptop computers.
However, in the semiannual reports the FBI reported to the DOJ only 106
lost and stolen weapons and 97 lost and stolen laptop computers, as shown
in the table below.




       73
           DOJ Semiannual Reports should contain the following information: description,
indicating if government or personal property; serial number, if any; dollar value; date and
location of incident; results of any investigation conducted by the appropriate agency; and
any corrective measures taken to prevent repetition. Loss or theft of ADP equipment shall
also include the following: a copy of the Federal Protective Service or other investigative
report; and a statement from the owner or user of the ADP equipment categorizing the
information as NSI, sensitive information or non-sensitive information.



                                           - 33 -
                ACCURACY OF FBI’S SEMIANNUAL REPORTS TO THE DOJ
Semi-             Weapon Losses         Laptop Computer Losses                Total
Annual
Period        Reported   FBI Property   Reported   FBI Property    Reported    FBI Property
Ended          to DOJ      Records       to DOJ      Records        to DOJ       Records
06/30/02        NA           40           NA            11            NA              51
12/31/02        22           20           21            21            43              41
06/30/03        17           17           14            12            31              29
12/31/03        23           34           22            41            45              75
06/30/04        12           12           21            42            33              54
12/31/04         4            4            4             6             8              10
06/30/05        20           27           10            24            30              51
12/31/05 74      8            6            5             3            13               9
 TOTALS        106          160           97           160           203              320
Source: OIG analysis of FBI data

      Further, only 4 of the 10 laptop computers that were identified as
having sensitive or classified information were reported to the DOJ. The
remaining six were not reported. Only 30 of the 51 laptop computers that
were unknown as to whether they contained sensitive or classified
information were reported to the DOJ. In our judgment, the FBI has not
adequately improved its procedures relating to the timely and accurate
reporting of thefts of government property to the Justice Management
Division, Facilities and Administrative Services Staff (FASS) DOJ Security
Officer.

DOJCERT

      DOJ regulations require all components to submit immediate reports
summarizing incidents involving the loss of both classified and unclassified
systems, to the Department of Justice Computer Emergency Response
Team (DOJCERT). The DOJCERT assists in handling computer security
incidents throughout DOJ. 75

      We contacted DOJCERT officials to determine if the FBI submitted the
required incident reports for the 160 laptop computers that were identified
as lost or stolen during our review period. We determined that of the 160

         74
           The DOJ Semiannual Report ending December 31, 2005, contained information
relating to lost or stolen weapons and laptop computers that occurred during the audit
period ending September 30, 2005. Our analysis did not include losses that occurred after
September 30, 2005.

         75
           According to the DOJCERT, computer security incidents are any unexpected,
unplanned event that could have a negative impact on IT resources. Computer security
incidents can include the loss of both classified and unclassified systems, unauthorized
removal of computer equipment, and exploited weaknesses in a computer system that
allows unauthorized access to password files.


                                          - 34 -
laptops that FBI reported as lost or stolen during the 44-month review
period, it had only submitted 1 incident report to the DOJCERT. This
incident report contained information regarding a laptop computer that
contained sensitive information reported stolen by the FBI’s Criminal Justice
Information Services (CJIS) Division on June 24, 2005. The FBI did not
report any of the other lost or stolen laptop computers to the DOJCERT,
including the other 9 that the FBI believed contained sensitive or classified
information.

      We asked the FBI’s Enterprise Security Operations Center (ESOC), the
unit responsible for submitting incident reports summarizing computer
losses, why only one incident was reported to the DOJCERT. In response,
the ESOC officials stated that prior to an OMB memorandum, Reporting
Incidents Involving Personally Identifiable Information and Incorporating the
Cost for Security in Agency Information Technology Investments, dated July
12, 2006, the FBI was only responsible for submitting incidents to the
DOJCERT that pertained to the loss of Personally Identifiable Information. 76
However, as stated previously, as a result of our review we identified a
stolen laptop containing the names, addresses and phone numbers of FBI
personnel that was not reported to the DOJCERT. Further DOJCERT officials
told us that the reporting of incidents involving the loss of both classified and
unclassified systems to the DOJCERT has been a requirement since the
inception of the United States Computer Emergency Readiness Team (US-
CERT) in 2003. 77

Disposal of Weapons and Laptop Computers

      In our 2002 audit report, we found that the documentation for laptop
disposals did not establish whether hard drives were properly destroyed and
disposed of and were free of classified information. We recommended that
the FBI improve the documentation showing that outdated, damaged, or
excess laptop computers and hard drives were properly discarded.



       76
           Personally Identifiable Information is any information about an individual
maintained by an agency, including, but not limited to, education, financial transactions,
medical history, and criminal or employment history and information which can be used to
distinguish or trace an individual's identity, such as their name, social security number, date
and place of birth, mother’s maiden name, biometric records, including any other personal
information which is linked or linkable to an individual.
       77
          The United States Computer Emergency Readiness Team (US-CERT) is a
partnership between the Department of Homeland Security and the public and private
sectors. Established in 2003 to protect the nation's Internet infrastructure, US-CERT
coordinates defense against and responses to cyber attacks across the nation.


                                            - 35 -
      In response to this recommendation, the FBI said it would implement
an automated system for tracking information technology throughout its life
cycle, including its disposal. Further, the FBI Security Division issued
guidance in November 2003 governing the improved documentation of the
destruction of excess laptops and hard drives. The guidance specifically
addressed the clearing, sanitization and destruction of all media types,
including computer hard drives.

      However, the guidance does not specifically include the requirement
for documenting that laptops and other media are properly discarded.

       The MAOP requires that all computers that have processed sensitive or
classified information be “sanitized and declassified” and sent to FBI
headquarters for disposal. Field offices are required to initiate the disposal
of excess laptop computers by entering a “Declaration of Excess” and an
“Excess Property Detail Report” into the PMA as well as by submitting to the
Asset Management Unit a Form FD-519 (Requirements and Certification for
Cannibalization and Destruction of Equipment).

      During our follow-up audit at FBI headquarters, we obtained Forms
FD-519 that included laptop computers, which were disposed of between
February 1, 2002, and September 30, 2005. We selected a judgmental
sample of ten laptop computers from the Forms FD-519 and traced them to
the PMA, confirming that the PMA accurately showed the excess laptops as
disposed.

       At the five field offices we visited, the available documentation
pertaining to hard drives from excessed laptops did not indicate that the
field offices removed hard drives and sent them to FBI headquarters for
disposal. The available documentation that we examined also did not
include evidence of whether any classified information had been sanitized.
Further, we found evidence at the Los Angeles Field Office and the New York
Field Office that some laptop computers had been destroyed, but there was
no documentation to show that the hard drives were removed and forwarded
to FBI headquarters. We were told that all hard drives from Los Angeles and
New York were degaussed and destroyed at the field office instead of being
forwarded to FBI headquarters. 78 The New York Field Office received
degaussing equipment in June 2006; however, it had not forwarded hard
drives to FBI Headquarters for more than 2 years. Records at FBI
headquarters also did not sufficiently document that hard drives from field


       78
          Degaussing is the process of erasing data that is stored in magnetic media, such
as hard drives, floppy disks and magnetic tape, thereby rendering previous data
unrecoverable.


                                          - 36 -
offices were received and properly destroyed. Specifically, the records did
not include names of employees, the reason for destruction, and the location
and method of destruction, as required. Further, the FBI policy states that
the destruction of Top Secret and Sensitive Compartmented Information
(SCI) must be witnessed and recorded by two employees with security
clearances commensurate with the classification of the material being
destroyed. We cannot be certain that the FBI followed the policy since we
could not determine if any of the hard drives that were destroyed contained
Top Secret or SCI information.

      In sum, despite our prior recommendation, the FBI did not document
that specific computers had been “sanitized and declassified” before being
disposed. Officials at each of those locations told us they believed that
excess laptop computers and hard drives had been properly discarded.
However, they could not provide evidence that proper procedures were
followed. We again recommend that the FBI document the completion of all
required steps for disposing of excess laptop computers and hard drives that
previously processed sensitive or classified information.

Exit Procedures for Departing Employees

      In our 2002 audit report, we found indications that the FBI was not
recovering all issued weapons and laptops from employees before their
departure. We recommended that the FBI strengthen procedures to ensure
departing employees return all property issued to them or reimburse the
government. In response to the recommendation, the FBI revised its policy
and distributed an electronic communication to all employees who were
leaving, notifying them that they could be held accountable for lost or stolen
FBI property.

      The process for departing FBI employees includes an exit interview
with the employee’s supervisor and completion of certain forms. FBI
procedures call for the supervisor to review the PMA printout and recover all
issued property listed on that document. In addition, the supervisor should
complete a Report of Exit and Separation (Form FD-193) and a Receipt for
Government Property (Form FD-281). The Form FD-281 is used for both
receiving and returning government property. The Form FD-193 documents
a variety of actions that must be completed upon an employee’s departure.

      During our follow-up review, we judgmentally selected the files of 50
former employees and the Forms FD-281 and FD-193 for both weapons and
laptops issued to each of the 50 employees. We asked for these documents
at both the FBI Records Management Division and at each of the field offices
that we reviewed. However, the FBI could provide only 19 of the required


                                    - 37 -
50 Forms FD-281 for weapons and laptop computers, and only 32 of the 50
Forms FD-193.

     The following table shows the number of Forms FD-281 and the Forms
FD-193 reviewed for the five field offices.

                  TOTAL FORMS FD-281 AND FD-193 REVIEWED
               FEBRUARY 1, 2002, THROUGH SEPTEMBER 30, 2005
               New        Los     Washington
               York     Angeles      D.C.     Chicago  Miami       TOTALS
 FD-281          3         10         2           0       2          17
 Weapons
 FD-281          0            2        0           0         0        2
 Laptop
 Computers
 FD-193         10            6        5           6         5        32
Source: OIG analysis of FBI data

      Based on our review of the 160 weapon losses, we concluded that four
of the lost or stolen weapons were the result of an agent leaving the FBI and
not returning a weapon. In our judgment, the FBI has not sufficiently
strengthened its exit processing for departing employees to obtain all
weapons.

      The FBI also revised its policy to require that all laptop computers
issued to an individual be documented on a Form FD-281. The forms should
be signed by the individual with custody of the property and maintained at
the division office. We did not find any cases that resulted in an agent
leaving the FBI and not returning a laptop.

      In sum, although the FBI revised its policy to strengthen procedures to
ensure that departing employees return all property that had been issued to
them or reimburse the government for the cost of the property, we noted
that the policy is not being followed consistently.

Conclusion

      In response to our August 2002 audit, the FBI has taken steps to
address weaknesses in physical inventories and reconciling weapons and
laptop computers to the financial system. However, we identified continuing
weaknesses in several areas. Specifically, the FBI failed to adequately:
(1) maintain records on how many of its laptop computers were authorized
to process NSI; (2) improve its documentation of the disposal of excess
laptop computers and hard drives to ensure that all sensitive or classified
information had been sanitized prior to disposal; (3) report weapon and



                                   - 38 -
laptop losses to the DOJ; and (4) ensure that property is recovered from
employees before they leave FBI service. Therefore, we make several
recommendations for the FBI to improve its management of weapons and
laptop computers.

Recommendations

      We recommend that the FBI:

8.    Maintain and submit complete, accurate, and timely reports to the DOJ
      CIO containing all appropriate FBI laptops authorized to process
      classified information.

9.    Improve the documentation supporting the destruction of excess
      laptop computers and hard drives.

10.   Revise its guidance regarding when field offices can degauss their own
      hard drives.

11.   Submit complete, accurate, and timely Semiannual Reports to the DOJ
      Security Officer JMD, FASS.

12.   Submit complete, accurate, and timely incident reports summarizing
      the loss of appropriate FBI laptop computers to the DOJCERT, as
      required.

13.   Strengthen the exit processing for departing employees to ensure that
      all weapons, laptops, and other issued property is returned to the FBI.




                                    - 39 -
    STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS

       The audit of the FBI’s control over weapons and laptop computers was
conducted in accordance with Government Auditing Standards. As required
by these standards, we tested selected transactions and records to obtain
reasonable assurance about the FBI’s compliance with laws and regulations
that, if not complied with, we believe could have a material effect on
operations. Compliance with laws and regulations applicable to the FBI’s
control over weapons and laptops is the responsibility of its management.

      Our audit included examining, on a test basis, evidence about laws and
regulations. The specific requirements for which we conducted tests are
contained in the OMB Circular No. A-123, Management’s Responsibility for
Internal Control and the Justice Property Management Regulations (JPMR).

      Our audit identified several areas where the FBI was not in compliance
with the laws and regulations referred to above. Specifically, the FBI did not
always report its lost and stolen weapons and laptops to DOJ as required. In
addition, the FBI did not always report incidents pertaining to lost or stolen
laptop computers to DOJCERT as required. With respect to transactions that
were not tested, nothing came to our attention that caused us to believe
that FBI management was not in compliance with the laws and regulations
cited above.




                                    - 40 -
                STATEMENT ON MANAGEMENT CONTROLS

      In planning and performing our audit of the FBI’s Controls over
Weapons and Laptop Computers, we considered the FBI’s management
controls for the purpose of determining our audit procedures. This
evaluation was not made for the purpose of providing assurance on the
management control structure as a whole. However, we noted certain
matters that we consider to be reportable conditions under the Government
Auditing Standards.

       Reportable conditions involve matters coming to our attention relating
to significant deficiencies in the design or operation of the management
control structure that, in our judgment, could adversely affect the FBI’s
ability to manage its control over weapons and laptops. During our audit,
we identified the following management control concerns.

      •   The FBI does not maintain records of laptops with NSI classification
          levels as required by the DOJ CIO.

      •   The FBI failed to improve its documentation of the disposal of
          excess laptop computers and hard drives to ensure that all sensitive
          or classified information had been sanitized prior to disposal.

      •   The FBI failed to improve the process to ensure that property is
          recovered from employees before they leave the FBI.

      Because we are not expressing an opinion on the FBI’s management
control structure as a whole, this statement is intended solely for the
information and use of the FBI in managing its control over weapons and
laptops. This restriction is not intended to limit the distribution of this
report, which is a matter of public record.




                                     - 41 -
                                                                APPENDIX I

               OBJECTIVES, SCOPE, AND METHODOLOGY

       We completed a follow-up audit of the FBI’s control over weapons and
laptop computers. The purpose of the follow-up audit was to assess whether
adequate corrective action had been taken on findings and recommendations
in the August 2002 audit report. Those recommendations stated that the
FBI should: (1) revise its policy for protecting equipment from loss and for
disciplining employees when they do not follow FBI policy; (2) establish
deadlines for reporting, documenting, and investigating losses, (3) ensure
that the FBI conducts periodic inventories of weapons and laptop computers;
(4) reconcile the property records to the financial records; (5) ensure that
departing employees return all property that was entrusted to them; and
(6) improve documentation showing that excess property had been properly
disposed. The FBI agreed with these recommendations and outlined a plan
for taking corrective action.

      We performed the follow-up audit in accordance with the Government
Auditing Standards and included such tests of the records and procedures
that we considered necessary. Our testing covered the period between
February 1, 2002, and September 30, 2005.

       We obtained an understanding of the control environment for weapons
and laptop computers from the Property Procurement and Management
Section of the Finance Division at FBI headquarters. We performed on-site
audit work between October 2005 and June 2006 at FBI headquarters
(including the Training Academy at Quantico, Virginia) and at field offices in
New York, New York; Miami, Florida; Los Angeles, California; Chicago,
Illinois; and Washington, D.C.

       To examine the FBI’s efforts to identify lost and stolen weapons and
laptop computers, we obtained a list of all such losses that occurred since
February 1, 2002, and reviewed the available files and the circumstances
surrounding those losses. We also obtained DOJ Semi-annual Reports of lost
or stolen property that were submitted to the DOJ Security Officer. For lost
or stolen weapons, we queried NCIC to determine if those losses had been
reported and if weapons had been subsequently recovered. We also queried
the ATF National Tracing Center database to determine if any of those
weapons had been recovered through subsequent law enforcement
activities.

      For laptop computers, our objective was to determine if the loss
resulted in compromised classified or sensitive information. We could not


                                    - 42 -
independently verify the sensitivity of the information due to the loss of the
machines. Therefore, we relied on assertions from the Reports of Lost or
Stolen Property (Form FD-500) submitted for each lost or stolen laptop to
ascertain whether classified or sensitive information was comprised.

      In addition to the testing detailed above, we: (1) reviewed applicable
laws, policies, regulations, manuals, and memoranda; (2) interviewed
appropriate personnel; (3) tested internal controls; (4) reviewed property
and accounting records (with an emphasis on activity since February 1,
2002); and (5) physically inspected property. We tested internal controls
pertaining to weapons and laptop computers in the following areas:

      •   purchasing and recording in the official property database, the PMA;

      •   receipt and assignment, including weapons and laptop computers
          not assigned to specific individuals (pooled property), specialized
          equipment, and the return of items from separated employees;

      •   physical inventories, including separation of duties; and

      •   disposals, including property record deletions.

       We tested these controls through a sample from the 52,263 weapons
and 26,166 laptop computers reported in the PMA as of November 2005. In
total, we reviewed 974 items, including 497 weapons and 477 laptop
computers. Details about the universe from which these samples were
taken and about the samples themselves may be found in Appendix II. Our
tests also included:

      •   samples of weapons and laptop computers purchased between
          February 1, 2002, and September 30, 2005, as recorded in
          purchase documents, to ensure that the items were recorded in the
          PMA;

      •   samples of pooled property to ensure that the property was
          accounted for and the records reflected the correct status;

      •   samples of weapons and laptop computers found during an on-site
          inventory at each audited FBI location to ensure that the item was
          accurately reflected in the PMA; and

      •   samples of weapons and laptop computers assigned to FBI
          personnel to ensure the items were accounted for and the property
          records were complete (staff testing).


                                     - 43 -
      The samples described above are delineated by test, property type,
and location, in the table in Appendix II. We also reviewed the
documentation between February 1, 2002, and September 30, 2005, related
to 50 former FBI personnel, to determine if all weapons and laptop
computers were returned. Moreover, we reviewed disposal actions initiated
between February 1, 2002, and September 30, 2005, to ensure these
actions were adequately supported.




                                  - 44 -
                                                                                                         APPENDIX II

                                           SAMPLING DESIGN

       The FBI database we tested contained 52,263 weapons and 26,166
laptops assigned to all FBI offices and officials located around the country
and abroad. Analysis of the distribution of weapons and laptops revealed
that more than half of the items in the universe were assigned to seven
offices. Specifically, 52 percent of all weapons and 54 percent of all laptops
were assigned to: (1) FBI headquarters, (2) the FBI Training Academy at
Quantico, Virginia, (3) the Chicago Field Office, (4) the Los Angeles Field
Office, (5) the Miami Field Office, (6) the New York City Field Office, and
(7) the Washington, D.C. Field Office.

                               Seven Offices Reviewed
                    February 1, 2002, through September 30, 2005
                                           United States of America


              WA
                                                                                                                                    ME
                                MT             ND

         OR                                                   MN                                                             VT
                                                                                                                               NH
                     ID                        SD                                                                   NY         MA
                                                                              WI
                                                                                                                                   RI
                                                                                         MI                                   CT
                                 WY

                                                                   IA                                         PA
   CA          NV                                NE                                                                      NJ
                                                                                              OH                   MD
                                                                                                                        DE
                                                                               IL   IN
                           UT
                                      CO                                                            WV
                                                    KS              MO                                        VA
                                                                                              KY


                                                                                                          NC
                                                                                    TN
                          AZ                             OK
                                     NM                                 AR                               SC


                                                                               MS   AL             GA


                                                    TX

                                                                         LA
        AK
                                                                                                         FL




               HI

Source: OIG analysis of FBI data




                                                      - 45 -
       To provide effective coverage and efficient testing of the items, a
stratified random sample design was selected, as shown in the table below.
A total sample of 497 weapons and 477 laptops were tested.

             Sample of Weapons and Laptop Computers Tested
                                Weapons                        Laptops
            Location       Number     Percent             Number     Percent
                           Tested     Tested              Tested      Tested
    Quantico, VA             212           1.17%            187       3.24%
    FBI Headquarters          48           2.92%            161       3.16%
    Chicago                   36           3.17%            16        4.03%
    Los Angeles               55           3.18%            29        4.02%
    Miami                     33           3.20%            18        4.00%
    New York                  69           3.17%            42        4.03%
    Washington, D.C.          44           3.18%            24        3.99%
    Total                   497                            477
   Source: Property Management Application (PMA) System




                                     - 46 -
                                                                             APPENDIX III

                         CIRCUMSTANCES OF WEAPON LOSSES
            FD-500
            REPORT
 NO.         DATE            LOCATION                     DESCRIPTION OF LOSS 79
1 80        08/10/01      Los Angeles         Special Agent’s rental vehicle was burglarized.
                                              Weapon and other items in the trunk were stolen.
2           12/18/01      Washington          Special Agent’s FBI vehicle was stolen. The weapon
                                              was inside the vehicle.
3           01/11/02      Los Angeles         Unexplained Loss.
4           01/11/02      Los Angeles         Special Agent retired. No record of having returned
                                              his weapon.
5           01/25/02      New York City       Weapon stolen from Special Agent’s residence.
                                              Issuance of letter of censure.
6           01/25/02      New York City       Weapon stolen from Special Agent’s FBI vehicle.
7           01/25/02      New York City       Weapon stolen from Special Agent’s FBI vehicle.
8           01/31/02      Pittsburg           The weapon was reported as stolen from the
                                              Special Agent's desk.
9           02/11/02      New York            Special Agent mugged and weapon was stolen.
10          02/20/02      Milwaukee           Special Agent retired from the FBI on 11/30/93.
                                              Special Agent stated that he surrendered his bureau
                                              weapon to an individual in the Milwaukee office.
11          02/26/02      Miami               Special Agent who resigned from the FBI claimed
                                              that he had turned in the weapon to a Principal
                                              Firearms Instructor at an unknown time. However,
                                              records reflected that the missing pistol was still
                                              listed as assigned to the Special Agent.
12          02/26/02      Miami               Before the Special Agent retired, his home was
                                              burglarized and his Bureau issued weapon was
                                              stolen.
13          02/28/02      Albany              Unable to find weapon during the inventory.

14          02/28/02      Albany              Unable to find weapon during the inventory.

15          02/28/02      Albany              Unable to find weapon during the inventory.

16          02/28/02      Albany              Unable to find weapon during the inventory.

17          02/28/02      Albany              Unable to find weapon during the inventory.




           79
              In the Description of Loss column, we added in bold the result of OPR’s
    adjudication of the loss.
           80
               While weapon losses 1 through 8 occurred prior to our audit period beginning
    February 1, 2002; we included them in our audit because they were reported during the
    period of our review.




                                              - 47 -
      FD-500
      REPORT
NO.    DATE         LOCATION                   DESCRIPTION OF LOSS 79
18    02/28/02   Birmingham       Unable to find weapon during the inventory.

19    02/28/02   Los Angeles      Weapon Stolen from Special Agent’s FBI vehicle.

20    02/28/02   Dallas           Unexplained loss.

21    03/05/02   Dallas           Weapon Stolen from Special Agent’s FBI vehicle.
                                  Issuance of letter of censure.
22    03/12/02   Washington       Unknown

23    03/12/02   Washington       Unknown

24    03/12/02   Washington       Unknown

25    03/12/02   Unknown          No explanation.

26    03/12/02   Washington       Unknown

27    03/13/02   Albany           Unable to find weapon during the inventory.
28    03/13/02   Albuquerque      Weapon Stolen from Special Agent’s residence.

29    03/15/02   New York         While in a restaurant, Special Agent’s briefcase was
                                  stolen containing the weapon.
30    03/20/02   Richmond         Unable to find weapon during the inventory.

31    04/03/02   Boston           Special Agent stated that he never took possession
                                  of the weapon having only signed it out to take
                                  advantage of the buyback program that was being
                                  proposed at the time. The missing weapon is
                                  considered lost.

32    04/03/02   Salt Lake City   Weapon was not returned by terminated employee.
33    04/03/02   Tampa            Weapon stolen from rental car.

34    04/03/02   Oklahoma City    The retired Special Agent stated that during his
                                  undercover assignment, his desk was cleaned out
                                  by other agents. The Special Agent also stated that
                                  the weapon was returned to the WMF at Quantico.
35    04/03/02   New York City    Special Agent retired. No record of having returned
                                  his firearm.
36    04/04/02   Phoenix          Special Agent’s car was stolen. When the vehicle
                                  was recovered, the weapon was missing.

37    04/6/02    Unknown          Weapon stolen from Special Agent’s FBI vehicle.
                                  3-day suspension without pay.




                                  - 48 -
      FD-500
      REPORT
NO.    DATE        LOCATION                  DESCRIPTION OF LOSS 79
38    04/25/02   Unknown          Weapon stolen from Special Agent’s FBI vehicle.

39    05/09/02   New York City    Weapon stolen from a locked drawer located in
                                  secure Bureau space.
40    05/13/02   Washington       Special Agent’s fanny pack containing gun was
                                  stolen from a storage room.3-day suspension.
41    05/14/02   Oklahoma City    The property has not been located during the
                                  Oklahoma City Division's physical inventory. A
                                  thorough review of OC's Administrative files failed
                                  to locate any documentation concerning the
                                  property.
42    05/23/02   Washington       Weapon stolen from Special Agent’s POV.
                                  3-day suspension.
43    06/20/02   Knoxville        Special Agent stated he returned the weapon into
                                  the gun vault at FBI Headquarters in 2000.
                                  However, there is no documentation as to the
                                  weapon being returned.
                                  3-day suspension without pay.

44    06/20/02   Unknown          Special Agent was mugged and weapon stolen.

45    07/10/02   Atlanta          Stolen from FBI vehicle.
                                  3-day suspension without pay.

46    07/22/02   Oklahoma City    Retired Special Agent turned in his revolver in
                                  approximately 1986, when he was issued a semi-
                                  automatic pistol. The property has not been
                                  located during an Oklahoma City Division's physical
                                  inventory.
47    08/12/02   Oklahoma City    Weapon was stolen during a burglary of his
                                  residence.

48    08/19/02   Sacramento       Weapon was stolen from hotel burglary.

49    08/19/02   Minneapolis      Weapon was stolen from Special Agent’s FBI
                                  vehicle.
                                  5-day suspension without pay.

50    08/21/02   Salt Lake City   No explanation

51    08/21/02   Salt Lake City   Weapon was stolen from hotel burglary.
                                  Letter of censure was issued to the Special
                                  Agent.
52    08/26/02   Jackson          Special Agent advised the FBI during an interview
                                  that he returned his weapon to the gun vault on
                                  5/7/91. Weapon could not be found during the
                                  inventory.




                                  - 49 -
      FD-500
      REPORT
NO.    DATE         LOCATION                 DESCRIPTION OF LOSS 79
53    08/27/02   Baltimore       Weapons stolen from Special Agent’s FBI vehicle.
                                 Letter of censure

54    09/09/02   Miami           No explanation

55    09/16/02   Miami           Weapons stolen from Special Agent’s   FBI vehicle.
                                 5-day suspension without pay.
56    09/23/02   Charlotte       Weapons stolen from Special Agent’s   FBI vehicle.
                                 3-day suspension without pay.
57    10/11/02   New Orleans     Weapons stolen from Special Agent’s   FBI vehicle.
                                 3-day suspension without pay.
58    10/15/02   Washington      Weapons stolen from Special Agent’s   FBI vehicle.
                                 3-day suspension.
59    10/17/02   Los Angeles     Weapons stolen from Special Agent’s   FBI vehicle.
                                 3-day suspension without pay.
60    10/31/02   San Francisco   Weapons stolen from Special Agent’s   FBI vehicle.
                                 3-day suspension.
61    11/22/02   New York City   Weapons stolen from Special Agent’s   FBI vehicle.

62    12/02/02   Houston         Weapons stolen from Special Agent’s FBI vehicle.

63    12/11/02   Albuquerque     Fanny pack containing weapon was left and lost in
                                 shopping cart at a grocery store.
                                 3-day suspension without pay.
64    01/06/03   Albuquerque     Weapons stolen from Special Agent’s residence.

65    01/08/03   San Francisco   Weapon was stolen from FBI vehicle parked at the
                                 Special Agent’s residence.
                                 3-day suspension without pay.
66    01/09/03   Cleveland       Weapons stolen from Special Agent’s FBI vehicle.

67    01/13/03   Houston         Weapons stolen from Special Agent’s FBI vehicle.
                                 3-day suspension without pay.
68    02/03/03   Albuquerque     Weapons stolen from Special Agent’s FBI vehicle.

69    02/03/03   Albuquerque     Weapons stolen from Special Agent’s FBI vehicle.

70    02/10/03   Michigan        Weapons stolen from Special Agent’s FBI vehicle.

71    02/27/03   Honolulu        Weapons stolen from Special Agent’s FBI vehicle.
                                 3-day suspension without pay.
72    03/03/03   Chicago         Weapons stolen from agent's residence.

73    03/13/03   Miami           Weapons stolen from Special Agent’s FBI vehicle.

74    03/25/03   Boston          Weapon could not be located during the inventory.




                                 - 50 -
      FD-500
      REPORT
NO.    DATE        LOCATION               DESCRIPTION OF LOSS 79
75    03/25/03   Boston         Weapon could not be located during the inventory.

76    03/25/03   Boston         Weapon could not be located during the inventory.

77    03/26/03   Miami          Weapons stolen from Special Agent’s FBI vehicle.

78    05/14/03   Los Angeles    Weapons stolen from Special Agent’s FBI vehicle.

79    05/16/03   Unknown        Weapon could not be located during the inventory.

80    06/05/03   Unknown        Weapon could not be located during the inventory.

81    06/06/03   Houston        Weapons stolen from Special Agent’s FBI vehicle.
                                3-day suspension without pay.
82    06/20/03   Unknown        No explanation.

83    06/26/03   New York       Special Agent’s residence was burglarized and the
                                weapon stolen.3-day suspension without pay.
84    06/30/03   Phoenix        Weapon stolen from Special Agent’s FBI vehicle.

85    07/08/03   Boston         Weapon stolen from Special Agent’s FBI vehicle.
                                Issuance of letter of censure.
86    07/08/03   Richmond       Weapon stolen from Special Agent’s FBI vehicle.
                                3-day suspension without pay.
87    07/10/03   Omaha          Paint gun may have been stolen from a SWAT
                                vehicle parked inside Special Agent's garage.

88    07/10/03   Omaha          Paint gun may have been stolen from a SWAT
                                vehicle parked inside Special Agent’s garage.
89    07/11/03   Detroit        Weapon could not be located during a physical
                                inventory.
90    07/11/03   Mobile Vault   No explanation.

91    07/11/03   Mobile Vault   No explanation.

92    07/11/03   Mobile Vault   No explanation.

93    07/11/03   Mobile Vault   No explanation.

94    07/11/03   Mobile Vault   No explanation.

95    07/11/03   Mobile Vault   No explanation.

96    07/11/03   Mobile Vault   No explanation.

97    07/11/03   Mobile Vault   No explanation.




                                - 51 -
      FD-500
      REPORT
NO.    DATE         LOCATION                DESCRIPTION OF LOSS 79
98    07/14/03   Salt Lake       Weapon could not be located during a physical
                                 inventory.

99    07/15/03   Tampa           POV was stolen while the weapon was inside. The
                                 vehicle was recovered; however, the weapon was
                                 not in the vehicle.3-day suspension without pay.
100   07/16/03   Chicago         No explanation.

101   07/16/03   Boston          Weapon could not be located during the inventory.

102   07/16/03   Cleveland       Weapon could not be located during the inventory.
                                 Case was closed without an OPR inquiry.
103   07/21/03   Richmond        Weapon stolen from a locked vehicle owned by a
                                 Bedford County Sheriff's Office Investigator.
104   07/25/03   Sacramento      Special Agent’s weapon was stolen while traveling
                                 on official business in San Francisco. No other
                                 details available.3-day suspension without pay.

105   08/13/03   New York City   Weapon stolen from burglarized residence.

106   08/26/03   Denver          Weapon stolen from FBI vehicle.
                                 5-day suspension without pay.
107   09/26/03   Philadelphia    Special Agent misplaced his personally-owned
                                 gunny sack containing his duty weapon.
                                 3-day suspension.
108   09/30/03   Philadelphia    Weapon stolen from FBI vehicle.
                                 3-day suspension without pay.
109   11/26/03   Tampa           Weapon stolen from FBI vehicle.
                                 3-day suspension.
110   12/30/03   Phoenix         Weapon stolen from FBI vehicle.
                                 3-day day suspension without pay.
111   01/15/04   Los Angeles     Weapon stolen from FBI vehicle.
                                 5-day suspension without pay.
112   03/03/04   Washington      Weapon stolen from FBI vehicle.

113   03/30/04   Columbia        Weapon stolen from rental car.
                                 3-day suspension without pay.
114   04/08/04   San Francisco   Weapon stolen from FBI vehicle.

115   04/08/04   San Francisco   Stolen from FBI vehicle.

116   04/16/04   San Antonio     Weapon stolen from office desk.
                                 7-day suspension.
117   04/26/04   Salt Lake       Weapon stolen from FBI vehicle.




                                 - 52 -
         FD-500
         REPORT
 NO.      DATE            LOCATION                    DESCRIPTION OF LOSS 79
118      05/20/04      Indianapolis       Weapon stolen from FBI vehicle. Vehicle was locked
                                          and trunk chained.
119      06/24/04      New York           Rented vehicle was burglarized and weapon was
                                          stolen.
120      07/16/04      San Antonio        Special Agent was unable to produce weapon when
                                          terminated as an employee.
                                          Agent was terminated for cause unrelated to
                                          loss of firearm.
121      09/10/04      Dallas             No explanation.

122      10/04/04      San Juan           Weapon stolen from Special Agent’s POV.
                                          3-day suspension. FBI reported weapon
                                          found. 81
123      10/26/04      Los Angeles        Fanny pack containing weapon was stolen at a
                                          restaurant
                                          5-day suspension without pay.
124      11/04/04      Seattle            Special Agent’s vehicle stolen from a parking lot
                                          with the weapon in the trunk. The vehicle was later
                                          recovered but had been completely destroyed by
                                          fire.
125      11/19/04      San Juan           Special Agent did not know whether weapon was
                                          stolen from FBI vehicle or restaurant
                                          5-day suspension without pay.
126      01/04/05      Dallas             Weapon stolen from Special Agent’s FBI vehicle

127      01/05/05      New York           No explanation.

128      01/05/05      El Paso            Purse containing weapon was stolen from a
                                          Restaurant.
                                          3-day suspension without pay.

129      01/19/05      San Juan           Weapon stolen from Special Agent’s FBI vehicle.
                                          7-day suspension.
130      01/19/05      San Juan           Weapon stolen from Special Agent’s FBI vehicle.

131      01/24/05      Washington, DC     Weapon stolen from Special Agent’s FBI vehicle.

132      03/01/05      San Antonio        No explanation.

133      03/03/05      New York           Weapon stolen from residence.




       81
          After completion of our fieldwork, the FBI reported to us that seven weapons had
 been recovered.




                                           - 53 -
       FD-500
       REPORT
 NO.    DATE         LOCATION                   DESCRIPTION OF LOSS 79
134    03/15/05   Philadelphia       Weapon stolen from residence.
                                     7-day suspension.

135    04/01/05   San Diego          Weapon stolen from POV. The weapon was a fanny
                                     bag which was secured in the trunk of the vehicle.
                                     No disciplinary action. Agent retired on
                                     4/3/2002. Loss occurred on 1/26/2002.

136    04/01/05   New Orleans        Weapon stolen from Special Agent’s FBI vehicle
                                     FBI reported weapon found.

137    04/28/05   Miami              Weapon could not be located by the NFPU while
                                     conducting the FY 2005 physical inventory.
138    05/05/05   Little Rock        No explanation.

139    05/06/05   Washington Field   Weapon could not be located during the inventory.
                  Office             FBI reported weapon found.
140    05/10/05   Jacksonville       Weapon was unaccounted for during a property
                                     inventory.
141    05/10/05   Atlanta            One of eight weapons stolen from the Atlanta
                                     Division SWAT van during the Super Bowl, held in
                                     Jacksonville, Florida on February 6, 2005.
142    05/10/05   Atlanta            One of eight weapons stolen from the Atlanta
                                     Division SWAT van during the Super Bowl, held in
                                     Jacksonville, Florida on February 6, 2005.
143    05/10/05   Atlanta            One of eight weapons stolen from the Atlanta
                                     Division SWAT van during the Super Bowl, held in
                                     Jacksonville, Florida on February 6, 2005.
144    05/10/05   Atlanta            One of eight weapons stolen from the Atlanta
                                     Division SWAT van during the Super Bowl, held in
                                     Jacksonville, Florida on February 6, 2005.
145    05/10/05   Atlanta            One of eight weapons stolen from the Atlanta
                                     Division SWAT van during the Super Bowl, held in
                                     Jacksonville, Florida on February 6, 2005.
146    05/10/05   Atlanta            One of eight weapons stolen from the Atlanta
                                     Division SWAT van during the Super Bowl, held in
                                     Jacksonville, Florida on February 6, 2005.
147    05/10/05   Atlanta            One of eight weapons stolen from the Atlanta
                                     Division SWAT van during the Super Bowl, held in
                                     Jacksonville, Florida on February 6, 2005.
148    05/10/05   Atlanta            One of eight weapons stolen from the Atlanta
                                     Division SWAT van during the Super Bowl, held in
                                     Jacksonville, Florida on February 6, 2005.
149    05/25/05   Salt Lake          Special Agent did not return the issued weapon to
                                     NFPU following his retirement on April 30, 2002.




                                     - 54 -
       FD-500
       REPORT
 NO.    DATE         LOCATION                   DESCRIPTION OF LOSS 79
150    06/07/05   Dallas           Purse containing weapon was stolen from a Sports
                                   Bar. FBI reported weapon found.
                                   7-day suspension without pay.
151    06/17/05   Seattle          Special Agent stopped at a coffee shop for a
                                   restroom break and inadvertently left the store
                                   leaving his gun behind in a fanny pack.
152    07/01/05   Washington, DC   Weapon was stolen from POV glove compartment.
                                   5-day suspension without pay.
153    08/01/05   Richmond         Weapon stolen from Special Agent’s FBI vehicle.

154    08/05/05   El Paso          Weapon stolen from Special Agent’s FBI vehicle.
                                   FBI reported weapon found.
155    08/09/05   Omaha            Special Agent left duty sidearm in gas station
                                   restroom and upon returning the weapon was
                                   missing. FBI reported weapon found.
156    08/25/05   Milwaukee        Special Agent was found deceased in his residence.
                                   His weapon could not be found. FBI reported
                                   weapon found.
157      NA       FBI did not      No explanation.
                  provide FD-500
158      NA       FBI did not      No explanation
                  provide FD-500
159      NA       FBI did not      No Explanation
                  provide FD-500
160      NA       FBI did not      No Explanation
                  provide FD-500




                                   - 55 -
                                                                                 APPENDIX IV

                             CIRCUMSTANCES OF LAPTOP LOSSES
         FD-500                                                                  CONTENTS OF
         REPORT                               DESCRIPTION                  LAPTOP ACCORDING TO
NO.       DATE           LOCATION                 OF LOSS                        FORM FD-500
1 82     04/19/01       Washington       Laptop lost in transit from   Special Agent not certain if
                                         Rwanda to Washington DC       classified information was
                                                                       contained on the hard
                                                                       drive.
 2        08/17/01      San Antonio      Stolen from secured Bucar
                                                                                    CND 83
                                         at agent’s residence
 3        10/25/01      Baltimore        Office space was
                        Special Ops      burglarized                                 CND
                        Group
 4        11/12/01      Salt Lake City   Burglarized at Special        Laptop’s hard drive had recently
                                         Agent’s residence-3-day       been wiped clean with no
                                         suspension                    national security or law
                                                                       enforcement sensitive
                                                                       information.
 5        12/06/01      FBI HQ           Unable to locate during
                                                                                     CND
                                         physical inventory.
 6        01/25/02      New York         Bucar car was burglarized.                  CND
 7        02/27/02      Los Angeles      Bucar car was burglarized                   CND
 8        02/28/02      San Juan         Unable to locate during
                                                                                     CND
                                         physical inventory.
 9        03/12/02      FBI HQ           Unable to locate during
                                                                                     CND
                                         physical inventory.
10        03/27/02      FBI HQ           Unknown                                     CND

11        04/11/02      FBI Laboratory   Lost when laptop was
                                                                                     CND
                                         shipped for repair.
12        05/02/02      Philadelphia     Bucar was burglarized.                      CND

13        05/06/02      Salt Lake City   Luggage was left with
                                         hotel prior to check in.
                                         When Special Agent
                                                                                     CND
                                         returned to retrieve
                                         luggage, the laptop was
                                         missing.
14       05/16/02       Miami            Special Agent’s residence     Laptop did not contain any files
                                         was burglarized.              and was protected with
                                                                       Safeguard Easy for Windows
                                                                       2000.
15        05/16/02      Kansas City      Bucar was burglarized.                      CND


              82
                  While laptop losses 1 through 6 occurred prior to our audit period beginning
       February 1, 2002; we included them in our audit because they were reported during the
       period of our review.
              83
                   Cannot Determine.


                                                 - 56 -
      FD-500                                                         CONTENTS OF
      REPORT                         DESCRIPTION                LAPTOP ACCORDING TO
NO.    DATE        LOCATION              OF LOSS                      FORM FD-500
16    06/24/02   Los Angeles    Special Agent’s residence   Laptop did not contain classified
                                was burglarized.            material on its hard drive.
17    07/16/02   Boston         Bucar was burglarized.      Laptop was password protected
                                                            and used to run diagnostics on
                                                            radio equipment. Laptop
                                                            contained classified and/or
                                                            sensitive information.
18    07/17/02   Miami          Special Agent was robbed.   Laptop was used in an
                                                            undercover capacity and does
                                                            not contain any classified
                                                            material nor any FBI macros.
19    07/29/02   FBI HQ         Special Agent’s residence   Laptop contained classified
                                was burglarized.            and/or sensitive information
                                                            including names, addresses and
                                                            phone numbers of FBI personnel.
20    09/09/02   Indianapolis   Unable to locate during
                                                                          CND
                                physical inventory.
21    09/09/02   Indianapolis   Unable to locate during     Cannot Determine however
                                physical inventory.         laptop contained sensitive and/or
                                                            classified information.
22    09/09/02   Indianapolis   Laptop never used by FBI
                                and turned over to Supply                 CND
                                Tech for disposal
23    09/09/02   Indianapolis   Laptop never used by FBI
                                and turned over to Supply                 CND
                                Tech for disposal
24    09/09/02   Indianapolis   Unable to locate during
                                physical inventory-No                     CND
                                disciplinary action
25    09/09/02   Indianapolis   Laptop never used by FBI
                                and turned over to Supply                 CND
                                Tech for surplus/disposal
26    10/11/02   New Orleans    Bucar was burglarized-      Laptop used for processing
                                3-day suspension            surveillance work.
27    10/17/02   Kansas         Laptop burglarized from
                                                                          CND
                                rental truck
28    10/18/02   New York       Laptop stolen from secure
                                trial preparation room in                 CND
                                USA’s office
29    10/25/02   New York       Bucar was burglarized                     CND

30    11/05/02   New York       Unable to locate during
                                                                          CND
                                physical inventory.
31    11/05/02   New York       Unable to locate during     Laptop used for administrative
                                physical inventory          record keeping, and not
                                                            investigative purposes.
32    11/12/02   New York       Unknown                                    CND




                                       - 57 -
      FD-500                                                          CONTENTS OF
      REPORT                           DESCRIPTION                LAPTOP ACCORDING TO
NO.    DATE        LOCATION              OF LOSS                      FORM FD-500
33    11/12/02   New York         Unknown                                 CND

34    11/12/02   New York         Unknown                                   CND

35    11/12/02   New York         Unknown                                   CND

36    11/18/02   FBI HQ           Unknown                                   CND

37    11/18/02   FBI HQ           Unknown                                   CND

38    12/31/02   New York         Unable to locate during
                                                                            CND
                                  physical inventory
39    01/08/03   Philadelphia     Special Agent lost laptop-
                                                                            CND
                                  3-day suspension
40    02/05/03   FBI HQ           Laptop was surplused                      CND

41    02/12/03   FBI HQ           Unable to locate during
                                                                            CND
                                  physical inventory
42    03/07/03   Miami            Laptop burglarized from      Laptop contained a navigation
                                  FBI boat                     program and WordPerfect. All
                                                               FBI macros had been previously
                                                               removed.
43    03/31/03   FBI HQ           Unable to locate during
                                                                            CND
                                  physical inventory
44    04/02/03   FBI HQ           Unknown                                   CND

45    05/15/03   FBI HQ           Unable to locate during
                                                                            CND
                                  physical inventory
46    05/15/03   FBI HQ           Unable to locate during
                                                                            CND
                                  physical inventory
47    05/27/03   Washington       Unknown                                   CND

48    06/09/03   New York         Unknown                                   CND

49    06/18/03   Atlanta          Unable to locate during
                                                                            CND
                                  physical inventory
50    06/19/03   FBI HQ           Unable to locate during
                                                                            CND
                                  physical inventory
51    06/25/03   Chicago          Unable to locate during
                                  physical inventory-Letter                 CND
                                  of Censure issued
52    07/08/03   Salt Lake City   Unable to locate during
                                                                            CND
                                  physical inventory
53    07/09/03   Pittsburgh       Unable to locate during
                                                                            CND
                                  physical inventory
54    07/10/03   FBI HQ           Unknown                                   CND

55    07/14/03   San Juan         Unknown                                   CND




                                         - 58 -
      FD-500                                                   CONTENTS OF
      REPORT                          DESCRIPTION          LAPTOP ACCORDING TO
NO.    DATE        LOCATION              OF LOSS               FORM FD-500
56    07/14/03   FBI HQ          Laptop was stolen                 CND

57    07/15/03   Philadelphia    Unable to locate during
                                                                  CND
                                 physical inventory
58    07/15/03   New York        Unable to locate during
                                                                  CND
                                 physical inventory
59    07/15/03   New York        Unknown                          CND

60    07/15/03   Phoenix         Unable to locate during
                                                                  CND
                                 physical inventory
61    07/16/03   Washington      Unable to locate during
                                                                  CND
                 Field           physical inventory
62    07/16/03   Washington      Unable to locate during
                                                                  CND
                 Field           physical inventory
63    07/16/03   Legal Attaché   Unable to locate during
                                                                  CND
                 Office          physical inventory
64    07/16/03   Los Angeles     Unable to locate during
                                                                  CND
                                 physical inventory
65    07/16/03   Boston          Unable to locate during
                                                                  CND
                                 physical inventory
66    07/16/03   San Francisco   Unable to locate during
                                                                  CND
                                 physical inventory
67    07/16/03   Los Angeles     Unable to locate during
                                                                  CND
                                 physical inventory
68    07/16/03   Memphis         Unable to locate during
                                                                  CND
                                 physical inventory
69    07/16/03   San Francisco   Unable to locate during
                                                                  CND
                                 physical inventory
70    07/16/03   San Francisco   Unable to locate during
                                                                  CND
                                 physical inventory
71    07/16/03   Los Angeles     Unable to locate during
                                                                  CND
                                 physical inventory
72    07/16/03   FBI HQ          Unknown                          CND
73    07/17/03   FBI HQ          Unknown                          CND
74    07/17/03   FBI HQ          Unknown                          CND
75    07/17/03   FBI HQ          Unknown                          CND
76    07/17/03   FBI HQ          Unknown                          CND
77    07/17/03   FBI HQ          Unknown                          CND
78    07/17/03   FBI HQ          Unknown                          CND
79    07/21/03   FBI HQ          Unable to locate during
                                 physical inventory—No            CND
                                 disciplinary action
80    07/21/03   FBI HQ          Unable to locate during
                                 physical inventory—No            CND
                                 disciplinary action



                                        - 59 -
      FD-500                                                       CONTENTS OF
      REPORT                          DESCRIPTION              LAPTOP ACCORDING TO
NO.    DATE        LOCATION              OF LOSS                   FORM FD-500
81    07/21/03   FBI HQ          Car was burglarized                   CND

82    07/21/03   FBI HQ          Unable to locate during
                                 physical inventory—No                    CND
                                 disciplinary action
83    07/22/03   FBI HQ          Unable to locate during
                                                                          CND
                                 physical inventory
84    07/23/03   FBI HQ          Unable to locate during
                                 physical inventory—No                    CND
                                 disciplinary action
85    07/23/03   FBI HQ          Unable to locate during
                                 physical inventory-No                    CND
                                 disciplinary action
86    09/29/03   Washington      Laptop stolen from Hotel                 CND
87    10/09/03   FBI HQ          Laptop stolen from
                                                                          CND
                                 unlocked vehicle
88    11/10/03   San Diego       Laptop disposed                          CND

89    12/01/03   Seattle         Laptop stolen from Bucar
                                                                          CND
90    01/26/04   San Francisco   Laptop stolen from POV-    Laptop used primarily for
                                 No disciplinary action     surveillances.
91    03/18/04   Washington      Laptop stolen              Laptop contained certification
                                                            and accreditation
                                                            documentation.
92    03/24/04   Unknown         Unknown                                   CND

93    03/24/04   Information     Unable to locate during
                 Resource        physical inventory                       CND
                 Division
94    03/24/04   Information     Unable to locate during
                 Resource        physical inventory                       CND
                 Division
95    03/26/04   Los Angeles     Unable to locate during
                                                                          CND
                                 physical inventory
96    03/26/04   Los Angeles     Unable to locate during
                                                                          CND
                                 physical inventory
97    03/30/04   New York        Unable to locate during
                                                                          CND
                                 physical inventory
98    04/28/04   FBI HQ          Unknown                                  CND
99    04/28/04   FBI HQ          Unknown                                  CND
100   04/28/04   FBI HQ          Unknown                                  CND
101   05/04/04   FBI HQ          Laptop stolen from POV                   CND
102   05/04/04   Los Angeles     Unable to locate during                  CND
                                 physical inventory
103   05/05/04   New York        Unable to locate during                  CND
                                 physical inventory


                                        - 60 -
      FD-500                                                         CONTENTS OF
      REPORT                           DESCRIPTION               LAPTOP ACCORDING TO
NO.    DATE        LOCATION               OF LOSS                    FORM FD-500
104   05/05/04   Atlanta         Unable to locate during                     CND
                                 physical inventory
105   05/05/04   FBI HQ          Laptop lost in IRAQ                         CND
106   05/05/04   Boston          Unable to locate during                     CND
                                 physical inventory
107   05/05/04   FBI HQ          Unable to locate during                     CND
                                 physical inventory
108   05/11/04   San Francisco   Unknown                                     CND
109   05/13/04   Birmingham      Laptop stolen from Special
                                 Agent’s residence-No                        CND
                                 disciplinary action
110   05/14/04   Milwaukee       Unable to locate during      Laptops hard disk drive removed
                                 physical inventory           due to age prior to it being lost.

111   05/19/04   Washington      Unable to locate during
                                                                             CND
                                 physical inventory
112   05/26/04   FBI HQ          Unable to locate during
                                                                             CND
                                 physical inventory
113   05/26/04   FBI HQ          Unable to locate during
                                                                             CND
                                 physical inventory
114   05/26/04   FBI HQ          Unable to locate during
                                                                             CND
                                 physical inventory
115   05/28/04   New York        Laptop lost in the mail-No
                                                                             CND
                                 disciplinary action
116   05/28/04   New York        Unknown                                     CND
117   05/28/04   New York        Unknown                                     CND
118   05/28/04   New York        Unknown                                     CND
119   06/03/04   FBI HQ          Unable to locate during                     CND
                                 physical inventory
120   06/07/04   Seattle         Stolen from Bucar            Laptop contained no FBI
                                                              programs or data.
121   06/07/04   Seattle         Stolen from Bucar            Laptop contained no FBI
                                                              programs or data.
122   08/06/04   Atlanta         Unable to locate during                     CND
                                 physical inventory
123   11/08/04   Boston          Unable to locate during      Laptop contained software
                                 physical inventory           determined to be “obsolete”.
124   11/15/04   FBI HQ          Laptop stolen                              CND
125   11/15/04   FBI HQ          Laptop stolen                               CND
126   11/16/04   Washington      Laptop stolen from                          CND
                                 residence
127   12/03/04   Atlanta         Laptop stolen from           Laptop hard drive was “wiped
                                 residence-Pending OPR        clean” just prior to the theft.
                                 investigation
128   12/16/04   San Francisco   Laptop stolen from Bucar                    CND



                                        - 61 -
      FD-500                                                             CONTENTS OF
      REPORT                            DESCRIPTION                LAPTOP ACCORDING TO
NO.    DATE        LOCATION                OF LOSS                       FORM FD-500
129   01/31/05   Los Angeles      Laptop stolen from           Laptop contained commercial
                                  residence                    off-the-shelf software and was
                                                               fully encrypted and password
                                                               protected with Pointsec.
130   04/08/05   Philadelphia     Unable to locate during                    CND
                                  physical inventory
131   04/12/05   Detroit          Burglary of Motor home                     CND
132   04/30/05   FBI HQ           Unknown                                    CND
133   05/04/05   FBI HQ           Unknown                                    CND
134   05/04/05   FBI HQ           Unknown                                    CND
135   05/04/05   FBI HQ           Unknown                                    CND
136   05/05/05   FBI HQ           Laptop left on plane                       CND
137   05/05/05   Las Vegas        Unable to locate during                    CND
                                  physical inventory
138   05/05/05   FBI HQ           Unknown                                    CND
139   05/06/05   FBI HQ           Unknown                                    CND
140   05/06/05   FBI HQ           Unable to locate during
                                  physical inventory-                        CND
                                  Pending OPR
                                  investigation
141   05/06/05   Unknown          Unable to locate during                    CND
                                  physical inventory
142   05/07/05   FBI HQ           Laptop stolen from vehicle                 CND
143   05/09/05   FBI HQ           Unable to locate during
                                  physical inventory-
                                                                             CND
                                  Pending OPR
                                  investigation
144   05/09/05   Salt Lake City   Unknown                                    CND
145   05/09/05   FBI HQ           Unknown                                    CND
146   05/12/05   FBI HQ           Laptop lost in IRAQ                        CND
147   05/17/05   FBI HQ           Unknown                                    CND
148   06/23/05   Puerto Rico      Laptop stolen from Bucar-
                                  Pending OPR                                CND
                                  investigation
149   08/26/05   FBI HQ           Laptop stolen from POV-      Laptop included Pointsec
                                  Pending OPR                  encryption software. Laptop also
                                  investigation                included classified and/or
                                                               sensitive information.

150   08/26/05   San Diego        Laptop stolen from Bucar-
                                  Pending OPR                                CND
                                  investigation



                                         - 62 -
      FD-500                                                CONTENTS OF
      REPORT                       DESCRIPTION          LAPTOP ACCORDING TO
NO.    DATE        LOCATION          OF LOSS                FORM FD-500
151   10/19/05   FBI HQ       Unknown                           CND
152   Unknown    FBI HQ       Unable to locate during
                                                               CND
                              physical inventory
153   Unknown    FBI HQ       Unknown                          CND
154   Unknown    FBI HQ       Unknown                          CND
155   Unknown    FBI HQ       Unknown                          CND
156   Unknown    FBI HQ       Unknown                          CND
157   Unknown    FBI HQ       Unknown                          CND
158   Unknown    FBI HQ       Unknown                          CND
159   Unknown    FBI HQ       Unknown                          CND
160   Unknown    FBI HQ       Unknown                          CND




                                     - 63 -
                                                                   APPENDIX V

           ANALYSIS OF LOST AND STOLEN WEAPONS
                                DAYS
                                                            REFERRED TO
                              BETWEEN
                                              FD-500        FBI’S OPR or
NUMBER       LOSS TYPE        LOSS AND
                                              TIMELY         Inspection
                               FD-500
                                                              Division
                             SUBMITTED
     1       Lost                       3       YES              YES
     2       Lost                     34        NO               YES
     3       Stolen                     0       YES              YES
     4       Stolen                     3       YES              YES
     5       Lost                     60        NO               YES
     6       Stolen                     0       YES              YES
     7       Stolen                   27        NO               YES
     8       Lost                       1       YES              NO
     9       Stolen                   93        NO               YES
     10      Stolen                   93        NO               YES
     11      Stolen                   93        NO               YES
     12      Stolen                   93        NO               YES
     13      Stolen                   93        NO               YES
     14      Stolen                   93        NO               YES
     15      Stolen                   93        NO               YES
     16      Lost                  CND 84       CND              YES
     17      Stolen                   93        NO               YES
     18      Lost                    CND        CND              NO
     19      Stolen                 1161        NO               YES
     20      Lost                       2       YES              NO
     21      Lost                       1       YES              YES
     22      Stolen                   13        NO               YES
     23      Stolen                     7       YES              YES
     24      Stolen                     7       YES              YES
     25      Stolen                   17        NO               NO
     26      Stolen                   12        NO               YES
     27      Stolen                   10        YES              YES
     28      Stolen                     1       YES              YES
     29      Stolen                  204        NO               YES
     30      Lost                   1212        NO               YES
     31      Stolen                   46        NO               YES
     32      Stolen                     9       YES              YES
     33      Stolen                     0       YES              YES
     34      Stolen                     4       YES              YES
     35      Stolen                     2       YES              YES
     36      Lost                    CND        CND              YES
     37      Lost                       4       YES              YES
     38      Stolen                     2       YES              YES
     39      Lost                    CND        CND              YES
     40      Stolen                     6       YES              YES


84
     CND = Could Not Determine. The FD-500 did not contain the date of the loss.


                                    - 64 -
                        DAYS
                                            REFERRED TO
                      BETWEEN
                                   FD-500   FBI’S OPR or
NUMBER   LOSS TYPE    LOSS AND
                                   TIMELY    Inspection
                       FD-500
                                              Division
                     SUBMITTED
  41     Stolen               38    NO          YES
  42     Stolen               34    NO          YES
  43     Stolen               13    NO          YES
  44     Stolen                9    YES         YES
  45     Stolen                2    YES         YES
  46     Stolen               18    NO          YES
  47     Lost                  4    YES         YES
  48     Stolen                1    YES         YES
  49     Stolen              368    NO          YES
  50     Lost                 18    NO          YES
  51     Stolen                6    YES         YES
  52     Stolen                1    YES         YES
  53     Lost                  0    YES         NO
  54     Lost                  0    YES         NO
  55     Stolen                8    YES         YES
  56     Stolen              CND    CND         YES
  57     Stolen              CND    CND         YES
  58     Stolen               67    NO          YES
  59     Stolen              329    NO          YES
  60     Stolen              329    NO          YES
  61     Stolen               73    NO          YES
  62     Lost                197    NO          NO
  63     Lost                  0    YES         YES
  64     Lost                CND    CND         NO
  65     Lost                  0    YES         NO
  66     Stolen             1227    NO          YES
  67     Lost                  4    YES         YES
  68     Lost                  4    YES         YES
  69     Lost                  4    YES         YES
  70     Lost                  4    YES         YES
  71     Lost                  4    YES         YES
  72     Lost                  4    YES         YES
  73     Lost                  4    YES         YES
  74     Lost                  4    YES         YES
  75     Stolen              CND    CND         YES
  76     Stolen             3892    NO          NO
  77     Stolen              541    NO          YES
  78     Lost                CND    CND         YES
  79     Stolen                1    YES         YES
  80     Lost                310    NO          NO
  81     Lost                CND    CND         NO
  82     Stolen                1    YES         YES
  83     Stolen                1    YES         YES
  84     Stolen             2652    NO          YES
  85     Stolen              863    NO          YES
  86     Lost                448    NO          NO


                          - 65 -
                        DAYS
                                            REFERRED TO
                      BETWEEN
                                   FD-500   FBI’S OPR or
NUMBER   LOSS TYPE    LOSS AND
                                   TIMELY    Inspection
                       FD-500
                                              Division
                     SUBMITTED
  87     Lost                448    NO          NO
  88     Lost                448    NO          NO
  89     Lost                 37    NO          YES
  90     Stolen              CND    CND         YES
  91     Stolen               17    NO          YES
  92     Stolen                7    YES         YES
  93     Stolen               89    NO          NO
  94     Stolen                1    YES         YES
  95     Stolen                7    YES         YES
  96     Stolen             1634    NO          NO
  97     Stolen                3    YES         YES
  98     Stolen                7    YES         YES
  99     Stolen               14    NO          YES
 100     Stolen                3    YES         YES
 101     Stolen                8    YES         YES
 102     Stolen             4932    NO          YES
 103     Stolen                7    YES         YES
 104     Stolen               68    NO          YES
 105     Stolen              CND    CND         YES
 106     Stolen              CND    CND         NO
 107     Stolen             5834    NO          YES
 108     Lost                CND    CND         YES
 109     Lost                  0    YES         YES
 110     Stolen              CND    CND         NO
 111     Lost                CND    CND         YES
 112     Stolen              CND    CND         NO
 113     Stolen             8841    NO          YES
 114     Lost                CND    CND         YES
 115     Lost                CND    CND         YES
 116     Stolen               45    NO          YES
 117     Stolen                2    YES         YES
 118     Stolen             1086    NO          NO
 119     Stolen              CND    CND         YES
 120     Lost                  0    YES         YES
 121     Lost                CND    CND         NO
 122     Lost                CND    CND         YES
 123     Lost                CND    CND         YES
 124     Stolen              251    NO          YES
 125     Stolen                8    YES         YES
 126     Lost                CND    CND         NO
 127     Stolen              CND    CND         YES
 128     Stolen                1    YES         YES
 129     Stolen              CND    CND         YES
 130     Stolen               38    NO          YES
 131     Lost                CND    CND         NO
 132     Lost                CND    CND         NO


                          - 66 -
                        DAYS
                                            REFERRED TO
                      BETWEEN
                                   FD-500   FBI’S OPR or
NUMBER   LOSS TYPE    LOSS AND
                                   TIMELY    Inspection
                       FD-500
                                              Division
                     SUBMITTED
 133     Lost                CND    CND         NO
 134     Lost                CND    CND         NO
 135     Lost                CND    CND         NO
 136     Stolen             1804    NO          NO
 137     Lost                CND    CND         NO
 138     Lost                CND    CND         YES
 139     Stolen              318    NO          YES
 140     Lost                CND    CND         YES
 141     Lost                CND    CND         YES
 142     Lost                CND    CND         YES
 143     Lost                CND    CND         YES
 144     Lost                CND    CND         YES
 145     Lost                CND    CND         YES
 146     Lost                CND    CND         YES
 147     Lost                CND    CND         YES
 148     Lost                CND    CND         YES
 149     Stolen             5683    NO          YES
 150     Lost                CND    CND         YES
 151     Lost                CND    CND         YES
 152     Stolen              CND    CND         YES
 153     Lost                CND    CND         YES
 154     Stolen              CND    CND         NO
 155     Lost                CND    CND         YES
 156     Stolen              CND    CND         YES
 157     Lost                CND    CND         YES
 158     Stolen               29    NO          YES
 159     Stolen               29    NO          YES
 160     Stolen              CND    CND         NO




                          - 67 -
                                                             APPENDIX VI

          ANALYSIS OF LOST AND STOLEN LAPTOP COMPUTERS
                     DAYS
                   BETWEEN                              CONTAINED
                     LOSS                  REFERRED     SENSITIVE/
           LOSS   AND FD-500   FD-500       TO FBI’S    CLASSIFIED   REPORTED
NUMBER     TYPE   SUBMITTED    TIMELY      OPR or ID   INFORMATION    TO DOJ
  1      Stolen           63     NO           YES          YES          NO
  2      Stolen            5     YES          YES           NO          YES
  3      Lost            165     NO           NO           CND          NO
  4      Stolen            9     YES          YES           NO          YES
  5      Lost              0     YES          NO           CND          NO
  6      Lost              0     YES          NO            NO          NO
  7      Stolen          121     NO           NO           CND          YES
  8      Lost              0     YES          NO            NO          NO
  9      Lost            125     NO           NO            NO          NO
  10     Lost            CND     CND          NO            NO          NO
  11     Lost              1     YES          NO            NO          NO
  12     Lost             11     NO           NO            NO          NO
  13     Lost              0     YES          NO            NO          NO
  14     Lost              0     YES          NO            NO          NO
  15     Lost            CND     CND          NO            NO          NO
  16     Lost            CND     CND          NO            NO          NO
  17     Lost            CND     CND          NO            NO          NO
  18     Lost            CND     CND          NO            NO          NO
  19     Lost            CND     CND          NO            NO          NO
  20     Stolen           23     NO           YES           NO          NO
  21     Lost              0     YES          YES          CND          NO
  22     Stolen           15     NO           NO            NO          YES
  23     Stolen            1     YES          YES           NO          YES
  24     Stolen           26     NO           YES           NO          YES
  25     Lost             41     NO           NO            NO          YES
  26     Lost             46     NO           NO            NO          YES
  27     Stolen           34     NO           NO            NO          YES
  28     Lost              0     YES          NO            NO          NO
  29     Stolen            6     YES          NO            NO          NO
  30     Lost              0     YES          NO            NO          YES
  31     Stolen           93     NO           NO            NO          YES
  32     Stolen            2     YES          YES           NO          YES
  33     Stolen            2     YES          NO            NO          YES
  34     Lost              0     YES          NO            NO          NO
  35     Lost              1     YES          NO            NO          NO
  36     Lost              0     YES          NO            NO          NO
  37     Lost              0     YES          NO            NO          NO
  38     Stolen           47     NO           NO            NO          YES
  39     Lost            CND     CND          NO           CND          NO
  40     Lost            CND     CND          NO           CND          NO
  41     Lost            CND     CND          NO           CND          NO
  42     Lost              0     YES          NO           CND          YES



                                  - 68 -
                     DAYS
                   BETWEEN                              CONTAINED
                     LOSS                  REFERRED     SENSITIVE/
           LOSS   AND FD-500   FD-500       TO FBI’S    CLASSIFIED   REPORTED
NUMBER     TYPE   SUBMITTED    TIMELY      OPR or ID   INFORMATION    TO DOJ
  43     Lost              0     YES          NO           CND          NO
  44     Lost              0     YES          NO           CND          NO
  45     Lost              0     YES          NO           CND          NO
  46     Lost            CND     CND          NO           CND          NO
  47     Lost            CND     CND          NO           CND          NO
  48     Lost            CND     CND          NO           CND          NO
  49     Lost            CND     CND          NO            NO          NO
  50     Lost             68     NO           YES           NO          NO
  51     Stolen          959     NO           NO           CND          YES
  52     Lost              0     YES          NO           YES          NO
  53     Lost            817     NO           NO            NO          NO
  54     Lost            CND     CND          NO           CND          NO
  55     Lost            300     NO           NO            NO          YES
  56     Lost              0     YES          NO           CND          NO
  57     Lost             71     NO           YES           NO          NO
  58     Lost              0     YES          NO            NO          NO
  59     Lost            CND     CND          NO            NO          NO
  60     Stolen           30     NO           NO            NO          YES
  61     Lost            CND     CND          NO           CND          YES
  62     Lost            461     NO           NO           CND          YES
  63     Lost            776     NO           NO           CND          YES
  64     Lost            776     NO           NO           CND          YES
  65     Lost            776     NO           NO           CND          YES
  66     Lost            696     NO           NO           CND          YES
  67     Lost            527     NO           NO           CND          YES
  68     Lost           1862     NO           NO            NO          YES
  69     Stolen            7     YES          NO           YES          YES
  70     Lost            CND     CND          YES          CND          YES
  71     Lost              7     YES          NO           CND          YES
  72     Stolen           19     NO           NO            NO          YES
  73     Lost             68     NO           NO            NO          YES
  74     Lost             68     NO           NO            NO          YES
  75     Lost            CND     CND          NO           CND          YES
  76     Stolen           25     NO           NO            NO          YES
  77     Lost            CND     CND          NO            NO          YES
  78     Stolen          CND     CND          NO            NO          YES
  79     Lost            CND     CND          NO           CND          NO
  80     Lost            CND     CND          NO           CND          YES
  81     Lost              0     YES          NO            NO          YES
  82     Lost            CND     CND          NO           CND          NO
  83     Lost              0     YES          YES          CND          NO
  84     Lost            CND     CND          YES          CND          NO
  85     Lost            CND     CND          YES          CND          NO
  86     Lost            CND     CND          YES          CND          NO
  87     Stolen          269     NO           NO            NO          YES
  88     Lost              0     YES          YES          CND          NO



                                  - 69 -
                     DAYS
                   BETWEEN                              CONTAINED
                     LOSS                  REFERRED     SENSITIVE/
           LOSS   AND FD-500   FD-500       TO FBI’S    CLASSIFIED   REPORTED
NUMBER     TYPE   SUBMITTED    TIMELY      OPR or ID   INFORMATION    TO DOJ
  89     Lost              0     YES          NO            NO          NO
  90     Lost              0     YES          NO           CND          YES
  91     Lost              0     YES          YES          CND          NO
  92     Lost            CND     CND          NO            NO          YES
  93     Lost            CND     CND          NO           CND          NO
  94     Lost             60     NO           NO           CND          NO
  95     Lost            CND     CND          NO            NO          YES
  96     Lost              0     YES          NO            NO          NO
  97     Stolen          CND     CND          NO            NO          YES
  98     Stolen          CND     CND          NO           YES          YES
  99     Lost              0     YES          NO            NO          NO
  100    Lost              0     YES          NO            NO          NO
  101    Lost            CND     CND          YES           NO          NO
  102    Lost              0     YES          NO            NO          YES
  103    Lost              0     YES          NO            NO          NO
  104    Stolen           40     NO           YES          CND          YES
  105    Lost              6     YES          NO            NO          NO
  106    Stolen          693     NO           YES           NO          YES
  107    Lost              0     YES          YES           NO          NO
  108    Lost            CND     CND          YES          CND          NO
  109    Lost              0     YES          NO            NO          NO
  110    Lost            CND     CND          NO            NO          YES
  111    Lost              0     YES          YES          YES          NO
  112    Lost            CND     CND          NO            NO          YES
  113    Lost            CND     CND          YES          YES          YES
  114    Lost            CND     CND          NO            NO          YES
  115    Lost            CND     CND          NO           CND          YES
  116    Lost            234     NO           YES           NO          YES
  117    Stolen          CND     CND          YES          CND          YES
  118    Lost            CND     CND          YES           NO          YES
  119    Lost            CND     CND          NO            NO          YES
  120    Lost            CND     CND          NO           CND          YES
  121    Lost            CND     CND          NO           CND          YES
  122    Stolen         1821     NO           NO            NO          YES
  123    Lost            CND     CND          NO            NO          YES
  124    Lost              3     YES          NO           CND          YES
  125    Stolen           17     NO           YES          YES          YES
  126    Lost            CND     CND          NO            NO          YES
  127    Lost            CND     CND          YES          CND          YES
  128    Lost            CND     CND          YES           NO          YES
  129    Lost            CND     CND          NO            NO          NO
  130    Lost            CND     CND          NO            NO          NO
  131    Lost            CND     CND          NO            NO          NO
  132    Lost            CND     CND          NO            NO          NO
  133    Lost            CND     CND          NO            NO          NO
  134    Lost            CND     CND          NO            NO          NO



                                  - 70 -
                     DAYS
                   BETWEEN                              CONTAINED
                     LOSS                  REFERRED     SENSITIVE/
           LOSS   AND FD-500   FD-500       TO FBI’S    CLASSIFIED   REPORTED
NUMBER     TYPE   SUBMITTED    TIMELY      OPR or ID   INFORMATION    TO DOJ
  135    Stolen          CND     CND          NO            NO          NO
  136    Stolen          CND     CND          NO            NO          NO
  137    Stolen          CND     CND          YES           NO          NO
  138    Lost            CND     CND          NO            NO          NO
  139    Lost            CND     CND          NO            NO          NO
  140    Lost            CND     CND          NO            NO          NO
  141    Lost            CND     CND          NO            NO          NO
  142    Stolen          CND     CND          NO            NO          NO
  143    Stolen          CND     CND          NO           CND          NO
  144    Stolen          CND     CND          NO            NO          NO
  145    Stolen         1216     NO           YES           NO          NO
  146    Stolen          CND     CND          NO            NO          NO
  147    Stolen          CND     CND          YES           NO          NO
  148    Stolen          CND     CND          NO            NO          NO
  149    Stolen          CND     CND          NO            NO          NO
  150    Stolen          CND     CND          NO            NO          NO
  151    Stolen          CND     CND          NO            NO          NO
  152    Stolen          CND     CND          NO            NO          NO
  153    Lost            CND     CND          YES           NO          NO
  154    Lost            CND     CND          NO           CND          NO
  155    Stolen          CND     CND          NO            NO          NO
  156    Lost            CND     CND          NO            NO          NO
  157    Lost            CND     CND          YES           NO          NO
  158    Lost            CND     CND          YES          CND          NO
  159    Lost            CND     CND          YES           NO          NO
  160    Stolen          CND     CND          YES          CND          NO




                                  - 71 -
                                                                     APPENDIX VII

        ANALYSIS OF THE 51 LOST AND STOLEN LAPTOP COMPUTERS
              THAT FBI DID NOT KNOW IF THEY CONTAINED
                SENSITIVE OR CLASSIFIED INFORMATION
                                           LAPTOP
        FD-500      TYPE                  ASSIGNED                               FIELD
        REPORT       OF      DATE OF        TO AN     CIRCUMSTANCES          OFFICE OR
NO.      DATE      LOSS        LOSS      INDIVIDUAL        OF LOSS            DIVISION
1     10/25/2001   stolen   unknown          No       Office space was      Baltimore
                                                      burglarized
2     12/6/2001    lost     unknown          No       during physical       Cyber Division
                                                      inventory
3     1/25/2002    stolen   unknown          Yes      FBI car burglarized   New York
4     3/12/2002    lost     unknown          No       during physical       CIRG Rapid
                                                      inventory             Deployment Unit
5     7/17/2002    stolen   unknown          Yes      laptop stolen from    Miami
                                                      Task Force
                                                      Detective
6     1/8/2003     lost     unknown          Yes      unknown               Philadelphia
7     3/31/2003    lost     3/28/2003        No       during physical       Information
                                                      inventory             Resource Div
8     5/27/2003    stolen   10/10/2000       Yes      unknown               Washington
9     6/19/2003    lost     unknown          No       during physical       Information
                                                      inventory             Resource Div
10    6/25/2003    stolen   05/16/2003       Yes      during physical       Chicago
                                                      inventory
11    7/9/2003     lost     7/09/2003        No       during physical       Pittsburgh
                                                      inventory
12    7/15/2003    lost     7/15/2003        No       during physical       New York
                                                      inventory
13    7/16/2003    lost     unknown          Yes      during physical       Washington
                                                      inventory
14    7/16/2003    lost     unknown          No       during physical       Washington
                                                      inventory
15    7/16/2003    lost     unknown          Yes      during physical       Legat Nairobi
                                                      inventory
16    7/16/2003    lost     5/17/2003        Yes      during physical       Los Angeles
                                                      inventory
17    7/17/2003    lost     4/12/2002        No       unknown               Counter-
                                                                            Intelligence
                                                                            Division
18    7/17/2003    lost     6/01/2001        No       unknown               Counter-
                                                                            Intelligence
                                                                            Division
19    7/17/2003    lost     6/01/2001        No       unknown               Counter-
                                                                            Intelligence
                                                                            Division




                                          - 72 -
                                          LAPTOP
        FD-500     TYPE                  ASSIGNED                              FIELD
        REPORT      OF      DATE OF        TO AN     CIRCUMSTANCES           OFFICE OR
NO.      DATE      LOSS       LOSS      INDIVIDUAL       OF LOSS             DIVISION
20    7/17/2003   lost     6/01/2001        No       unknown               Counter-
                                                                           Intelligence
                                                                           Division
21    7/17/2003   lost     8/20/2001        No       unknown               Counter-
                                                                           Intelligence
                                                                           Division
22    7/17/2003   lost     2/05/2002        No       unknown               Counter-
                                                                           Intelligence
                                                                           Division
23    7/21/2003   lost     7/21/2003        No       during physical       Cyber Division
                                                     inventory
24    7/21/2003   lost     unknown          No       during physical       Cyber Division
                                                     inventory
25    7/21/2003   lost     7/21/2003        No       during physical       Cyber Division
                                                     inventory
26    7/23/2003   lost     unknown          No       during physical       Cyber Division
                                                     inventory
27    7/23/2003   lost     unknown          No       during physical       Cyber Division
                                                     inventory
28    3/26/2004   lost     unknown          No       during physical       Los Angeles
                                                     inventory
29    3/26/2004   lost     3/19/2004        No       during physical       Los Angeles
                                                     inventory
30    4/28/2004   lost     unknown          No       unknown               ITD,TPS,Technica
                                                                           l Personnel Dev
31    4/28/2004   lost     unknown          No       unknown               ITD,TPS,Technica
                                                                           l Personnel Dev
32    4/28/2004   lost     unknown          No       unknown               ITD,TPS,Technica
                                                                           l Personnel Dev
33    5/4/2004    lost     5/4/2004         Yes      during physical       Los Angeles
                                                     inventory
34    5/5/2004    lost     unknown          No       during physical       Atlanta
                                                     inventory
35    5/28/2004   lost     5/28/2004        Yes      laptop lost in the    New York
                                                     mail
36    5/28/2004   lost     5/28/2004        No       unknown               New York
37    5/28/2004   lost     5/28/2004        No       unknown               New York
38    5/28/2004   lost     5/28/2004        No       unknown               New York
39    4/8/2005    lost     4/08/2005        Yes      unknown               Philadelphia
40    5/6/2005    lost     11/22/2004       No       Unknown               Security Division
41    5/7/2005    stolen   1/06/2005        No       stolen from vehicle   Cyber Division
42    5/17/2005   lost     5/17/2005        No       Unknown               Office of
                                                                           International
                                                                           Operations
43    Unknown     lost     unknown          No       during physical       Counterterrorism
                                                     inventory             Div




                                         - 73 -
                                      LAPTOP
        FD-500    TYPE               ASSIGNED                         FIELD
        REPORT     OF     DATE OF      TO AN     CIRCUMSTANCES     OFFICE OR
NO.      DATE     LOSS      LOSS    INDIVIDUAL       OF LOSS       DIVISION
44    No-FD-500   unk    unknown        No       unknown         Baltimore-Special
                                                                 Ops Group
45    No-FD-500   unk    unknown        No       unknown         Cyber Division
46    No-FD-500   unk    unknown        No       unknown         New York
47    No-FD-500   unk    unknown        No       unknown         CIRG Rapid
                                                                 Deployment Unit
48    No-FD-500   unk    unknown        No       unknown         Miami
49    No-FD-500   unk    unknown        No       unknown         Philadelphia
50    No-FD-500   unk    unknown        No       unknown         Information
                                                                 Resource Div
51    No-FD-500   unk    unknown        No       unknown         Washington Field
                                                                 Office




                                     - 74 -
                                                                        APPENDIX VIII

             ANALYSIS OF PROPERTY MANAGEMENT RECORDS

Table 1: FBI UNIVERSE OF FBI WEAPONS

    Field Name             Data Type          Non blank         Blank            Total
COST CODE              Code number                  52,263               0          52,263

COST CENTER NAME       Location                     52,003              260         52,263

BAR CODE               Bar code                     52,263               0          52,263

SERIAL NUMBER          Serial number                52,224              39          52,263

MANUFACTURER           Name                         52,263               0          52,263

MODEL NUMBER           Model number                 52,263               0          52,263

DESCRIPTION            Description                  52,263               0          52,263

AGENT ASSIGNED         Name of Agent                12,138       40,125 85          52,263



Table 2: FBI UNIVERSE OF LAPTOPS

    Field Name             Data Type          Non blank         Blank            Total
COST CODE              Code number                  25,302              864         26,166

COST CENTER NAME       Location                     25,195              971         26,166

BAR CODE               Bar code                     26,166               0          26,166

SERIAL NUMBER          Serial number                26,074              92          26,166

MANUFACTURER           Name                         26,166               0          26,166

MODEL NUMBER           Model number                 26,128              38          26,166

DESCRIPTION            Description                  26,166               0          26,166

AGENT ASSIGNED         Name of Agent                15,742         10,424           26,166




       85
           The weapons that were not assigned to individuals were either vault weapons or
 training weapons for which all had a cost code assigned.


                                          - 75 -
                                          APPENDIX IX

LOST AND STOLEN FBI WEAPONS NOT FOUND IN NCIC
NUMBER   BARCODE            MAKE       MODEL
  1      F1540624        GLOCK       22
  2      F1467970        GLOCK       22
  3      F1822816        GLOCK       22
  4      F1017831        GLOCK       22
  5      F1921421        GLOCK       22
  6      F1389423        GLOCK       22
  7      F0308929        SIG SAUER   P226 AUTO
  8      F1540157        GLOCK       22
  9      F1111189        SIG SAUER   P226 AUTO
  10     U447328         REMINGTON   870
  11     F0436721        S&W         13
  12     F0010500        COLT        N/A
  13     F1048448        GLOCK       22
  14     F1388886        GLOCK       22
  15     F1091373        S&W         10
  16     F0647530        S&W         19
  17     F1092647        S&W         13
  18     F0648546        S&W         27
  19     F1092868        S&W         10
  20     F1092953        S&W         10
  21     F1093198        S&W         10
  22     F1092532        S&W         10
  23     F1092048        S&W         19




                    - 76 -
                                              APPENDIX X

     LOST AND STOLEN LAPTOP COMPUTERS
             NOT FOUND IN NCIC
NUMBER   BARCODE    SERIAL NUMBER     MANUFACTURER
   1     F1472532   BDB31400305       DELL
   2     F1247697   P01061000250062   IDP
   3     F1458830   78-BMZT5          IBM
   4     F1848225   78-KYGMZ          IBM
   5     F1400248   KP-BPKLL          IBM
   6     F2120756   KLRF              IBM
   7     F1424477   AF-1BWFK          IBM
   8     F1929724   KPYMRZD           IBM
   9     F1289770   78-VHFR1          IBM
  10     F1384882   78-X61190998      IBM
  11     F1551015   78RL664           IBM
  12     F1918255   3573365-0001      MPC
  13     F0979096   35662580001       MICRON
  14     F2085722   KP7T6P5           IBM
  15     F0793230   3562637           MICRON
  16     F1140937   NC3-8812          DGI
  17     F1915877   4EKSB06698        PANASONIC
  18     F0967142   283094313928924   SONY
  19     F0967346   S014004637A       SONY
  20     F1247637   P01061000250002   IDP
  21     F1289772   78-VHCP6          IBM
  22     F1842502   78C4498           IBM
  23     F1842504   78C0564           IBM
  24     F1071683   78CCRFH           IBM
  25     F1802804   XB235008N6A       APPLE
  26     F1802813   XB236025N6A       APPLE
  27     F1802814   XB23701EN6A       APPLE
  28     F1150487   P00589500100143   IDP
  29     F1516573   AF-1BTLN          IBM
  30     F1516608   AF-1BW2X          IBM
  31     F1516609   AF-1BW9A          IBM
  32     F1929565   KPZLHLR           IBM
  33     F1929573   KPZLHHL           IBM
  34     F1929607   KPZLHKN           IBM
  35     F0155722   NC35345           IDP
  36     F0441398   16206410099       MICRON
  37     F1854595                     TOSHIBA
  38     F0765954   94390743          DELL
  39     F1000426   FC5039HV49G       POWERBOOK
  40     F1424484   AF-1BWBF          IBM



                       - 77 -
NUMBER   BARCODE    SERIAL NUMBER     MANUFACTURER
  41     F1445033   23DPR69           IBM
  42     F1703658   99TF0N7           IBM
  43     F1282091   0020060393        GATEWAY
  44     F0441399   16206410100       MICRON
  45     F1424571   19425040001       MICRON
  46     F1424574   19424970001       MICRON
  47     F1424575   19424980001       MICRON
  48     F1424744   24238550001       MICRON
  49     F1424753   24238190001       MICRON
  50     F1424778   24238600001       MICRON
  51     F1425546   78CX737           IBM
  52     F1929697   3IKSA10150        PANASONIC
  53     F1779003   0032502807        GATEWAY
  54     F1779004   0032502808        GATEWAY
  55     F1641969   1753D11           DELL
  56     F0441313   16206410014       MICRON
  57     F0441396   16206410097       MICRON
  58     F1420033   0015828768        GATEWAY
  59     F1528930   78RG369           IBM
  60     F1583663   78MRFAC           IBM
  61     F1289768   78-VHCB1          IBM
  62     F1280968   1V92CGX5W0YP      COMPAQ
  63     F0577096   R16760            GRID SYSTEMS
  64     F0655063   S3N0007A          COMPAQ
  65     F0364358   264795U           IBM
  66     F1171505   78RTY999608       IBM
  67     F1171560   78RTY499609       IBM
  68     F1176889   78RPL259608       IBM
  69     F1506740   78-NKXH10800      IBM
  70     F1506762   78-AL3050900      IBM
  71     F0656045   6542HFJ6D307      COMPAQ
  72     F1053739   A3849C0500527     OLIVETTI ECHOS
                                      PENTIUM 100
  73     F1171563   78RTX00           IBM
  74     F1121717   78BNAA9           IBM
  75     F1072624   TE0134700497      HITACHI
  76     F1385242   78-LCHY3          IBM
  77     F1511025   1CYUA1218         PANASONIC
  78     F1767062   0026316401        GATEWAY
  79     F1207909   78-C0490          IBM
  80     F1209239   0013922597        GATEWAY
  81     F1528798   78RH162           IBM
  82     F1246275   0019436028        GATEWAY
  83     F1726551   ZZGEG2330ZZ4666   ITRONIX



                       - 78 -
NUMBER   BARCODE    SERIAL NUMBER      MANUFACTURER
  84     F0441220   0011071112         GATEWAY
  85     F1142385   NCP02636           DGI
  86     F1162229   23-786HZ           IBM
  87     F1208504   P00710000100008    IBM
  88     F0573839   T2043              GRID SYSTEMS
  89     F1171583   78RRW849609        IBM
  90     F1767089   0499104029         KDS
  91     F1149860   P00685600100007    IDP
  92     F1148322   P00394600100046    IDP
  93     F1383981   N8009F5P03564      IMPERIAL
  94     F1084564   78ALCF4            IBM
  95     F1148649   P00418600100006    IDP
  96     F1142457   P00354000100004    IDP
  97     F1148154   P003540000100016   IDP
  98     F0704189   7525624            TOSHIBA
  99     F1151050   F00820100100002    IDP
  100    F1534539   AAD9B81            IBM
  101    F0626413   0020060428         GATEWAY
  102    F1076633   P00525000150001    NOTEBOOK
  103    F1151013   P0086300010024     IEP
  104    F1152016   P00895100100036    IDP
  105    F0447778   4379310786         TEXAS
                                       INSTRUMENTS
 106     F0727397   NC35030            IDP
 107     F1140751   NC38111            IDP
 108     F1152243   P00886400100043    IDP
 109     F1516535   AF-1BWAW
 110     F1561802   3003659-0001       MICRON
 111     F1354993   0015099887         GATEWAY
 112     F1140788   NC38148            IDP
 113     F1141008   38247              IDP
 114     F0299933   130DE016018        ZENITH
 115     F0299934   130DE01585         ZENITH
 116     F0299935   130DE015588        ZENITH
 117     F1425523   78CR175            IBM
 118     F0704426   78TLMFG            IBM
 119     F1445837   6D14JC5EBO-GP      PRESARIO
 120     F0287818   30036830001        MICRON
 121     F1122135   BC899380151        GATEWAY 2000
 122     F1459801   AF1BW1N            IBM
 123     F0552033   78ARKK6            IBM
 124     F1022368   78AN425            IBM
 125     F1516627   AF-1BTH6           IBM
 126     F0897901   GZY092400337       MICRON



                       - 79 -
NUMBER   BARCODE    SERIAL NUMBER     MANUFACTURER
  127    F1020901   78FVBVV           IBM
  128    F1147534   P00310300350034   DGI
  129    F1149333   P00559100150033   IDP
  130    F1170016   78-BBF72          IBM
  131    F1207747   78-CX559          IBM
  132    F1271603   78-MAMR3          IBM
  133    F1247716   P01061000250087   IDP
  134    F1516843   AF-1BWCX          IBM
  135    F1141346   NC313106          IDP
  136    F1393739   78-CV095          IBM




                       - 80 -
                                          APPENDIX XI

 LOST OR STOLEN WEAPONS AND LAPTOPS
          BY FBI FIELD OFFICE
FIELD OFFICE          WEAPONS   LAPTOPS
Albany, NY                6         0
Albuquerque, NM           5         0
Atlanta, GA               9         4
Baltimore, MD             1         1
Birmingham, AL            1         1
Boston, MA                6        4
Charlotte, NC             1        0
Chicago, IL               2         1
Cleveland, OH             2         0
Columbia, SC              1         0
Dallas, TX                5         0
Denver, CO                1        0
Detroit, MI               1        1
El Paso, TX               2         0
Honolulu, HI              1         0
Houston, TX              3         0
Indianapolis, IN          1        6
Jackson, MS               1        0
Jacksonville, FL          1         0
Kansas, KS                0        2
Knoxville, TN            1         0
Las Vegas, NV             0         1
Little Rock, AR           1        0
Los Angeles, CA           8        9
Memphis, TN               0         1
Miami, FL                 7         3
Michigan, MI              1         0
Milwaukee, WI             2        1
Minneapolis, MN           1        0
Mobile, AL                8         0
New Orleans, LA           2         1
New York, NY             13        18
Oklahoma City, OK        4         0
Omaha, NE                 3         0
Philadelphia, PA          3         4
Phoenix, AZ               3        1
Pittsburg, PA             1        1
Providence, RI            0        0
Richmond, VA              4        0
Sacramento, CA            2         0
Salt Lake City, UT        7         4
San Antonio, TX           3         1
San Diego, CA             1         2
San Francisco, CA        4         6
San Juan, PR              4         3
Seattle, WA               2         3
Tampa, FL                 3         0
Unknown                  11        10
Washington DC            11         8
FBI Headquarters          0        63
TOTAL                   160       160


                     - 81 -
                      APPENDIX XII

REVISED FORM FD-500




       - 82 -
              APPENDIX XIII

FORM FD-281




   - 83 -
              APPENDIX XIV

FORM FD-519




   - 84 -
              APPENDIX XV

FORM FD-193




   - 85 -
                                                                 APPENDIX XVI

                        ABBREVIATIONS AND FORMS

Abbreviations:

   ATF             Bureau of Alcohol, Tobacco, and Firearms
   AMU             Asset Management Unit
   APO             Accountable Property Officer
   BUCAR           Bureau (FBI) car
   CIO             Chief Information Officer
   CJIS            Criminal Justice Information Services Division
   DOJ             Department of Justice
   DOJCERT         Department of Justice Computer Emergency Response Team
   ESOC            Enterprise Security Operations Center
   FBI             Federal Bureau of Investigation
   FBIHQ           FBI Headquarters
   FBINET          FBI Secure Network
   FTU             Firearms Training Unit
   MAOP            Manual of Administrative Operations and Procedures
   MIOG            Manual of Investigative Operations and Guidelines
   NCIC            National Crime Information Center
   NSI             National Security Information
   OIG             Office of the Inspector General
   OMB             Office of Management and Budget
   OPR             Office of Professional Responsibility
   PED             Portable Electronic Device
   PFI             Principal Firearms Instructor
   PMA             Property Management Application
   PMO             Property Management Officer
   POV             Privately Owned Vehicle
   SAC             Special Agent in Charge
   SCI             Sensitive Compartmented Information
   SCU             Security Compliance Unit
   SEPS            Security and Emergency Planning Staff
   SPM             Security Programs Manager
   US-CERT         United States Computer Emergency Readiness Team

Forms:

  FD-193   -   Report of Exit and Separation
  FD-281   -   Report of Government Property
  FD-500   -   Report of Lost or Stolen Property – Property Management Matters
  FD-519   -   Requirements And Certification For Cannibalization And Destruction
               of Equipment




                                      - 86 -
                                                                       APPENDIX XVII

                          NATIONAL SECURITY INFORMATION

       National Security Information (NSI) is information that has been determined
pursuant to Executive Order 12958 or any predecessor order to require protection
against unauthorized disclosure and is marked to indicate its classified status when in
documentary form. There are three classification levels of NSI. Each level is a
measurement of the sensitivity of that information and the damage it could cause to the
United States national security if disclosed. These are the only levels authorized for
classified NSI:

     TOP SECRET – Applied to information, the unauthorized disclosure of which
     reasonably could be expected to cause exceptionally grave damage to the national
     security that the original classification authority is able to identify or describe.

     SECRET – Applied to information, the unauthorized disclosure of which reasonably
     could be expected to cause serious damage to the national security that the
     original classification authority is able to identify or describe.

     CONFIDENTIAL – Applied to information, the unauthorized disclosure of which
     reasonably could be expected to cause damage to the national security that the
     original classification authority is able to identify or describe.

      Additionally, there is a category of information known as “Sensitive
Compartmented Information” (SCI), or “Codeword,” which is afforded more stringent
protection because of its extreme sensitivity (U.S. Department of Justice, Security and
Emergency Planning Staff, Classified National Security Information: Reference Booklet,
June 1998, pp. 1 and 3).




                                         - 87 -
                   APPENDIX XVIII

AUDITEE RESPONSE




     - 88 -
- 89 -
- 90 -
- 91 -
- 92 -
                                                             APPENDIX XIX

       OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION
              ANALYSIS AND SUMMARY OF ACTIONS
                NECESSARY TO CLOSE THE REPORT

     We provided a draft audit report to the FBI for review and comment.
The FBI’s comments, which detail the actions it has taken or plans to
implement in response to our recommendations, have been included as
Appendix XVIII to this report.

      In its response, before responding to the recommendations, the FBI
expressed its disagreement with the inclusion of 43 of the 160 weapons
reported as lost or stolen during the 44-month period reviewed in this
follow-up audit. The FBI points out that while these 43 weapons were
reported as lost or stolen during the current review period, the loss actually
occurred prior to this period. We included these 43 weapons in the totals for
several reasons. First, our approach in the follow-up audit was consistent
with our approach in the original 2002 audit of FBI accountability for
weapons and laptops that also included weapons lost or stolen prior to the
review period but reported during the review period. Second, none of these
43 weapons were included in the 354 lost or stolen weapons reported in the
2002 audit, so there was no “double counting” in the sample. Third,
removing these weapons from the analysis would inaccurately characterize
the number of weapons reported by the FBI as lost or stolen during this 44-
month period. However, we noted this issue in the report, along with the
FBI’s objection and the reasons for our methodology.

     This Appendix summarizes our analysis of the FBI’s comments and
proposed actions required to close the report.

Recommendations:

1.    Resolved. The FBI agreed with our recommendation to ensure that
      the AMU maintains all Forms FD-500 with accompanying
      documentation and required information. In response, the FBI stated
      that the AMU began scanning and electronically maintaining all Forms
      FD-500 and accompanying documentation and required information.
      In addition, the FBI stated that all previously submitted and processed
      Forms FD-500 will be scanned for electronic retention purposes, as
      resources permit. To close this recommendation, please provide
      evidence of new or strengthened controls and additional guidance that
      have been implemented (for example, periodic reconciliations between
      Forms FD-500 and a PMA list of lost and stolen weapons and laptop


                                    - 93 -
     computers) to ensure that the AMU maintains all Forms FD-500.

2.   Resolved. The FBI agreed with our recommendation to ensure that
     the most current version of the Form FD-500 is used to report weapon
     and laptops losses. In its response, the FBI stated that on October 1,
     2006, the AMU began conducting preliminary reviews of each
     submitted Form FD-500 and intends to return any outdated form back
     to the originating field office for correction and proper submission.
     This recommendation can be closed when the FBI provides to us a
     copy of the directive that instructed the AMU to perform preliminary
     reviews of Forms FD-500.

3.   Resolved. The FBI agreed with our recommendation to ensure that
     all Forms FD-500 that are submitted to the AMU are complete,
     accurate, and timely. In its response, the FBI stated that on
     October 1, 2006, the AMU began conducting preliminary reviews of
     each submitted Form FD-500. The FBI said that forms found to be
     lacking required information are returned to the submitting office for
     correction.

     However, the FBI stated that it disagreed with our specific request to
     ensure that a description of the contents of lost or stolen laptop
     computers accompany the Forms FD-500. The FBI cited security risks
     as the reason for why the content information should not accompany
     the Forms FD-500 to the AMU. Also, the FBI stated that it already has
     policy in place requiring that its Security Division be notified in the
     event of a laptop loss or theft and that this requirement adequately
     addresses our recommendation.

     In our report, we stated that “[a]side from reviewing the Forms FD-
     500 we asked FBI officials if they could determine the content of the
     51 lost or stolen laptop computers and whether they contained
     sensitive or classified information. FBI officials explained that they did
     not maintain such information and, therefore, could not determine the
     content of the laptops or whether sensitive or classified information
     was contained on them. We asked FBI officials why they do not have
     this information. Security Division officials speculated that the SCU
     may not have been notified of the lost and stolen laptop computers
     and, therefore, would not have followed up in determining the
     contents of the lost or stolen laptops.”

     Further, we stated in our report that “FBI officials acknowledged to the
     OIG that there was a breakdown in obtaining necessary information on
     the contents of the laptops that were lost or stolen. The FBI Security


                                    - 94 -
     officials suggested that part of the cause may be attributed to the lack
     of a centralized unit within the FBI that could identify the contents of
     lost or stolen laptops or make sure that Forms FD-500 are complete
     and accurate.” In addition, we noted that some of the Forms FD-500
     that we reviewed were accompanied by general descriptions of the
     contents of the lost or stolen laptops. However, a description of laptop
     contents was not found for all Forms FD-500 relating to lost and stolen
     laptops.

     Based on these results, our intent was to recommend that not only
     should the AMU ensure that Forms FD-500 be complete, accurate, and
     timely, but also that a general description of the contents of lost or
     stolen laptops be submitted to the Security Division. The specific
     request in our recommendation would ensure that the Security
     Division receives adequate information in order for it to be able to
     appropriately address laptop losses and perform timely damage
     assessments. We do not believe this would present a security
     concern, but rather it would be consistent with the FBI’s security
     policy. Therefore, we consider this recommendation to be resolved.
     To close this recommendation, please provide us with a copy of the
     directive that instructed the AMU to perform preliminary reviews of
     Forms FD-500 to ensure completeness, accuracy, and timeliness.
     Also, please provide evidence of new or strengthened controls and
     additional guidance that have been implemented to ensure that the
     Security Division timely receives a general description of the contents
     of lost or stolen laptops.

4.   Resolved. The FBI agreed with our recommendation to revise the
     Forms FD-500 to include additional information such as whether or not
     the loss was reported to the Inspection Division for investigation, the
     classification level of National Security Information contained on the
     laptop, whether the laptop contained personal identifying information,
     and whether the laptop was protected with encryption software. The
     FBI stated that it was developing an electronic Form FD-500 that will
     capture this information. In addition, the FBI stated that a mandatory
     field will appear in the PMA requiring the classification level approved
     for each laptop computer. This recommendation can be closed when
     we receive evidence that the Form FD-500 was revised and a new field
     relating to laptop classification levels was added to the PMA.

5.   Resolved. The FBI agreed with our recommendation to ensure that
     the Security Division performs a damage assessment of all laptops that
     are lost or stolen and maintains documentation on this information.
     The FBI stated that each Division’s Chief Security Officer is required to


                                   - 95 -
     ensure that damage assessments are completed and the results are
     incorporated in the formal notification reporting the loss or theft of a
     laptop computer. This recommendation can be closed when the FBI
     provides evidence of new or strengthened controls that have been
     established to ensure that the Division’s Chief Security Officers are
     conducting and properly reporting damage assessments of lost or
     stolen laptop computers.

6.   Resolved. The FBI agreed with our recommendation to ensure that
     weapon and laptop losses are appropriately entered into NCIC. The
     FBI stated that this recommendation will be addressed with the
     development of the new electronic Form FD-500 that will capture
     information related to the NCIC entry and the AMU’s preliminary
     review of the Forms FD-500 information for completeness. This
     recommendation can be closed when the FBI provides evidence of the
     revised Form FD-500 and a copy of the directive that instructed the
     AMU to perform preliminary reviews of Forms FD-500 information to
     ensure completeness.

7.   Resolved. The FBI agreed with our recommendation to assign to the
     AMU monitoring responsibilities over weapon and laptop losses to
     ensure that all proper notifications are made. The FBI stated that as
     of January 3, 2007, the AMU assumed the responsibility for ensuring
     that all appropriate FBI entities are made aware of the receipt of
     Forms FD-500 reporting the loss or theft of weapons and laptop
     computers. The AMU will provide copies of Forms FD-500 and related
     documentation to FBI entities responsible for investigative and
     administrative follow-up action in weapon and laptop losses. In
     addition, the FBI stated that it will notify all divisions no later than
     February 15, 2007, of all existing policy related to the issue of
     responding to lost or stolen weapons and laptop computers. Further,
     the AMU will provide, on a monthly basis, copies of all Forms FD-500
     received to the Assistant Director, Finance Division. This
     recommendation can be closed when we receive a copy of the directive
     that assigned monitoring responsibilities to the AMU to ensure proper
     notifications are made regarding lost or stolen weapons and laptops.
     In addition, please provide a copy of the summary electronic
     communication that will be disseminated to all FBI divisions no later
     than February 15, 2007, regarding all existing policy on responding to
     lost or stolen weapons and laptops.

8.   Resolved. The FBI agreed with our recommendation to maintain and
     submit complete, accurate, and timely reports to the DOJ CIO
     containing all appropriate FBI laptops authorized to process classified


                                    - 96 -
      information. The FBI stated that it was reviewing existing report
      submission policies to determine the appropriate guidance and
      monitoring needed to ensure all required and applicable reporting is
      submitted timely to the DOJ CIO. This review will be completed by
      February 28, 2007. To close this recommendation, please provide
      evidence of new or strengthened controls and additional guidance that
      have been implemented to ensure the FBI provides complete,
      accurate, and timely reports to the DOJ CIO.

9.    Resolved. The FBI agreed with our recommendation to improve the
      documentation supporting the destruction of excess laptop computers
      and hard drives. The FBI stated that it was reviewing existing policies
      in order to provide additional guidance that will support the proper
      completion of all required steps related to the disposal of excess laptop
      computers and hard drives. To close this recommendation, please
      provide evidence of new or strengthened controls and additional
      guidance that have been implemented to ensure the FBI maintains
      supporting documentation related to the destruction of excess laptop
      computers and hard drives.

10.   Resolved. The FBI agreed with our recommendation to revise its
      guidance regarding when field offices can degauss their own hard
      drives. The FBI stated that it was reviewing existing policies in order
      to provide additional guidance on procedures for the degaussing of
      hard drives. To close this recommendation, please provide a copy of
      any guidance developed regarding when field offices can degauss their
      own hard drives.

11.   Resolved. The FBI agreed with our recommendation to submit
      complete, accurate, and timely semiannual reports summarizing the
      loss and theft of property to the JMD. The FBI stated that it was
      reviewing existing report submission policies to determine the
      appropriate guidance and monitoring needed to ensure all required
      and applicable reporting is submitted in a timely manner. To close this
      recommendation, please provide evidence of new or strengthened
      controls and additional guidance that have been implemented to
      ensure the FBI submits complete, accurate, and timely semiannual
      reports to JMD.

12.   Resolved. The FBI agreed with our recommendation to submit
      complete, accurate, and timely incident reports summarizing the loss
      of appropriate FBI laptop computers to the DOJCERT, as required. The
      FBI stated that it was reviewing existing report submission policies to
      determine the appropriate guidance and monitoring needed to ensure


                                    - 97 -
      all required and applicable reporting is submitted timely. To close this
      recommendation, please provide evidence of new or strengthened
      controls and additional guidance that have been implemented to
      ensure the FBI submits complete, accurate, and timely reports to
      DOJCERT.

13.   Resolved. The FBI stated that it disagreed with this recommendation,
      but it proposed action that satisfies the intent of our recommendation.
      It acknowledged that sufficient documentation was not maintained
      with regard to the 50 separated employees selected for testing during
      the current audit period. The FBI proposed to issue additional
      guidance by January 31, 2007, to division heads restating the current
      policies and procedures to be implemented upon the separation of an
      employee and emphasizing the need to maintain proper
      documentation of such actions. These proposed actions would
      strengthen exit processing for departing employees, which addresses
      the intent of our recommendation. To close this recommendation,
      please provide evidence of new or strengthened controls and additional
      guidance that have been implemented to ensure the FBI maintains
      proper documentation on its exit processing of departing employees.




                                    - 98 -
